<html>
<title> - WATCHING THE WATCH LIST: BUILDING AN EFFECTIVE TERRORIST SCREENING SYSTEM</title>
<body><pre>[Senate Hearing 110-621]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-621
 
  WATCHING THE WATCH LIST: BUILDING AN EFFECTIVE TERRORIST SCREENING 
                                 SYSTEM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2007

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
38-989 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
            Christian J. Beckner, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
       Robert L. Strayer, Minority Director for Homeland Security
           John K. Grant, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Tester...............................................    19
    Senator Voinovich............................................    21
    Senator Warner...............................................    23
    Senator Carper...............................................    23
    Senator Levin................................................    27

                               WITNESSES
                      Wednesday, October 24, 2007

Eileen R. Larence, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................     5
Hon. Glenn A. Fine, Inspector General, U.S. Department of Justice     8
Leonard C. Boyle, Director, Terrorist Screening Center, Federal 
  Bureau of Investigation, U.S. Department of Justice............    10
Paul Rosenzweig, Deputy Assistant Secretary for Policy, U.S. 
  Department of Homeland Security................................    13

                     Alphabetical List of Witnesses

Boyle, Leonard C.:
    Testimony....................................................    10
    Prepared statement...........................................    65
Fine, Hon. Glenn A.:
    Testimony....................................................     8
    Prepared statement...........................................    54
Larence, Eileen R.:
    Testimony....................................................     5
    Prepared statement...........................................    37
Rosenzweig, Paul:
    Testimony....................................................    13
    Prepared statement...........................................    71

                                APPENDIX

``Promoting Accuracy and Fairness in the Use of Government Watch 
  Lists, Statement of the Constitution Project's Liberty and 
  Security Initiative,'' The Constitution Project, December 5, 
  2006...........................................................    78
U.S. Government Accountability Office, Report to Congressional 
  Requestors, ``Terrorist Watch List Screening: Opportunities 
  Exist to Enhance Management Oversight, Reduce Vulnerabilities 
  in Agency Screening Processes, and Expand Use of the List,'' 
  October 2007...................................................    87
U.S. Department of Justice, Office of the Inspector General, 
  Audit Division, ``Follow-Up Audit of the Terrorist Screening 
  Center,'' Audit Report 07-41, September 2007...................   169
Questions and responses for the record from:
    Ms. Larence..................................................   275
    Mr. Fine.....................................................   278
    Mr. Boyle....................................................   284
    Mr. Rosenzweig...............................................   293


  WATCHING THE WATCH LIST: BUILDING AN EFFECTIVE TERRORIST SCREENING 
                                 SYSTEM

                              ----------                              


                      WEDNESDAY, OCTOBER 24, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Carper, Tester, 
Collins, Voinovich, and Warner.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. In this hearing, we 
continue this Committee's oversight of our homeland security 
programs that have been created since September 11, 2001. Last 
week, we had one on port security. Yesterday, we had another 
interesting hearing on an aspect that we still need some help 
on. And today, we go to one where we have made some progress, 
although we still have some questions, and this is our focus on 
the terrorist watch list--a critical tool in our battle to keep 
terrorists from entering the United States and attacking our 
homeland again as they did on September 11, 2001.
    After September 11, 2001, we found as part of the 
investigation of how that event occurred that lists of 
suspected or potential terrorists that were in the possession 
of the Federal Government, many different Federal agencies, 
were, however, not shared, and certainly not shared in a way 
that increased deterrence of a terrorist attack. As a result, 
we now know that two of the September 11, 2001, hijackers--
Nawaf al-Hazmi and Khalid al-Mihdhar--were known to the CIA and 
NSA and were regarded as dangerous by both agencies. But that 
information was never shared with the Immigration and 
Naturalization Service or the State Department, and therefore, 
these two terrorists were allowed to enter our country and be 
part of carrying out the most devastating attack on our 
homeland in our history.
    The Terrorist Screening Center, operated by the FBI, was 
created in December 2003, to state it simply, to make sure that 
nothing like that ever happened again. Its mission was to pull 
together all the different lists of potential terrorists into 
one master list and to make sure that everyone who needed that 
information to protect our homeland had easy access to it. This 
master list is used as the basis for the creation of separate 
databases used by a number of Federal agencies today, including 
as TSA's No Fly List and the State Department's CLASS list or 
database, which is used to screen visa applicants. The 
terrorism watch list is also a vital tool State and local law 
enforcement can now access, creating a powerful new link to 
generate leads on potential terrorists within our country 
because of the access that hundreds of thousands of State and 
local law enforcement officers have to that list.
    This is a vast improvement over where we were before and on 
September 11, 2001. I want to thank the Terrorist Screening 
Center, the National Counterterrorism Center, the Department of 
Homeland Security, and other Federal agencies for the 
significant progress they have made over the last 4 years in 
closing this previous gap in our homeland security.
    The Government Accountability Office reports today in a 
report that we are releasing on this progress.\1\ But it also 
discusses some remaining vulnerabilities and weaknesses in the 
watch list system which we will want to discuss. The Department 
of Justice Inspector General, also appearing before us today, 
has found similar problems in the watch list system in his 
audits of the Terrorist Screening Center.
---------------------------------------------------------------------------
    \1\ The GAO Report on ``Terrorist Watch List Screening'' appears in 
the Appendix on page 87.
---------------------------------------------------------------------------
    Some of the concerns that we are going to discuss stem from 
the sheer size of the list. It contained 158,000 names in July 
2004. That grew to 755,000 names by May of this year, and it 
now stands at about 860,000 names. That is nearly a 500-percent 
increase in 3 years. Of course, if there is a good reason to 
have each of those names there, the increase in the size of the 
list is good news for our homeland security. But if many of 
these names are mistakenly there, the credibility of the 
terrorism watch list and its usefulness will be compromised. So 
we want to talk about that.
    I know that the Terrorist Screening Center has undertaken 
efforts to review portions of the watch list, such as the 
entire No Fly List, and has a long-term plan to review the 
entire watch list. But with the list likely to go over 1 
million names in the near future, we need to know that there 
are clear standards for placing names on it and, of course, for 
taking them off it.
    Another concern expressed by the Department of Justice--and 
I guess I would say the traveling public, or some of it--is 
providing an appeal for individuals who are caught in the watch 
list system because they have the same name or a similar name 
to someone who deserves to be on the list.
    The most famous of these cases is our own colleague, 
Senator Edward M. Kennedy, famously denied boarding on 
different airline flights because his name resembled that of an 
IRA terrorist. It took weeks to get this cleared up. I am going 
to try to avoid humor here because this is a serious subject. 
But it is essential that we have a redress system that is easy 
for people to navigate and can quickly resolve problems of 
mistaken identity without, of course, weakening the terrorist 
watch lists and their utility.
    Now, on the other side of the spectrum, the GAO report does 
cite some cases where people whose names were justifiably on 
the watch list have, nonetheless, been admitted into our 
country by Customs and Border Protection and cases where people 
on the No Fly List have been allowed to board international 
flights traveling to the United States. That, of course, is the 
most serious of all vulnerabilities that could exist in this 
system.
    So, bottom line, the picture I believe we are going to see 
today and the testimony we are going to hear and the questions 
we are going to ask, I think, will be around this reality. We 
have a new system in place. It is a great improvement over what 
existed before, but there are still occasions when that system 
lets in people who are on the watch list and keeps out people 
who should not be on the list. And, of course, all of us want 
to fix those vulnerabilities. But it is with appreciation for 
all that you have done that I welcome the witnesses and that I 
call on the Committee's Ranking Member now, Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman, and let me begin 
by commending you for holding this hearing. I think continuing 
oversight by this Committee is so important, and this is 
certainly an issue that directly affects the security of our 
country, but also affects our constituents day in and day out.
    The use of the terrorist watch list inspires both 
confidence and concern--confidence that our counterterrorism 
agencies are determined to detect and disrupt the travels of 
those who would do us harm, but also concern that this 
increased security may come at a cost to privacy and civil 
liberties.
    As the Chairman indicated, the 9/11 Commission noted that 
as many as 15 of the 19 hijackers might have been intercepted 
by border authorities if a procedure had been in place to link 
previously accumulated information to their names. Several of 
the hijackers had been cited in intelligence community files 
for terrorist links. Existing but untapped data on travel 
patterns, bogus visa applications, and fraudulent passport 
information could have focused official attention on some of 
the terrorists. Prior to the attacks of September 11, 2001, 
however, the government simply had no such consolidated system.
    Based on its investigation, the 9/11 Commission recommended 
that the Federal Government design a comprehensive screening 
system to help front-line officials at our borders and other 
critical points confirm the identity of people trying to enter 
our country or to board airplanes and to disrupt their plans if 
they pose a security threat.
    The need for effective information sharing and for tools to 
track terrorists' movements is self-evident. But if these 
databases contain information that is inaccurate, obsolete, or 
error-prone, then watch lists can prove to be both ineffective 
and unfair. Suspects who pose a security threat can pass 
unimpeded if they are not listed or if technical problems 
prevent their identification.
    On the other hand, all of us have heard from innocent 
constituents who have had the misfortune to share a similar 
name or other identifying data with a suspect on the watch 
list. Individuals who do not belong on the list can face 
frustrating delays every time they travel, and as Senator 
Kennedy and others have found, it can be very difficult to get 
erroneous information corrected. In addition, volumes of 
personal information in the hands of government can present a 
tempting target for identity thieves.
    Creating and maintaining a comprehensive terrorist watch 
list is an enormous endeavor fraught with technical and 
tactical challenges. On the technical side, integrating 
information from multiple government databases and then 
transmitting that information securely and accurately is no 
easy task. To be useful to our officers in the field, the watch 
list must provide reliable and accurate information that can be 
quickly evaluated and then used as a basis for action.
    The GAO report \1\ that we release today and the DOJ 
Inspector General's report\2\ that we received last month 
provide us with the means to review the screening process and 
assess its strengths and weaknesses.
---------------------------------------------------------------------------
    \1\ The GAO report appears in the Appendix on page 87.
    \2\ The DOJ Inspector General's report appears in the Appendix on 
page 169.
---------------------------------------------------------------------------
    The GAO report details the use of the watch lists by law 
enforcement over a 42-month period. Federal, State, and local 
officials had more than 53,000 encounters with individuals on 
the watch lists during that period.
    Unfortunately, as the Chairman mentioned, there are 
troubling examples of targeted individuals passing through 
screening undetected. We also have the more recent, very 
troubling case where Customs and Border Protection allowed an 
individual from Mexico who was infected with a dangerous strain 
of TB to pass across the border several times.
    A particularly troubling problem has been the failure to 
detect individuals on the No Fly List before they board a U.S.-
bound aircraft overseas. In some cases, the government's 
response to delayed detection has resulted in planes being 
diverted for an emergency landing--almost always, they seem to 
get diverted to Bangor, Maine--so that a suspicious individual 
can be questioned, detained, or refused entry. And perhaps the 
most recent example of that happening that resonated with 
people my age was when Cat Stevens was on the plane that was 
diverted to Bangor, Maine.
    These reports underscore the need to make the watch lists 
more accurate and more timely. After all, if we are dealing 
with the problem when the suspect is already on the plane, it 
is really a bit too late. We need to also improve the system 
for seeking redress if individuals believe that they have been 
wrongfully targeted. My understanding is that the Terrorist 
Screening Center is working with the GAO and the Inspector 
General to implement their recommendations.
    Any system that relies on judgments made by various 
personnel in different agencies applying varying standards will 
never be perfect, particularly when we are dealing with very 
large, complex databases. It is, nevertheless, imperative that 
improvements be made so that the American people can have more 
confidence and less concern about this important safeguard 
against terrorist attacks.
    Chairman Lieberman. Thanks very much, Senator Collins. 
Thanks to the witnesses for being here. We have an excellent 
group of witnesses. We are going to vote around 11 or so, so 
hopefully we can get through the opening statements and some 
questioning by the Senators who are here before we have to go 
and come back.
    We will begin with Ms. Larence--is it Larence, you say?
    Ms. Larence. Larence.
    Chairman Lieberman. Larence. OK, forget the ``W.''
    Ms. Larence. It was there before Ellis Island. [Laughter.]
    Chairman Lieberman. Yes, we have a lot of stories we could 
tell about that.
    OK. Ms. Larence is the Director of Homeland Security and 
Justice Issues at the Government Accountability Office of the 
United States, which has been such a strong source of support 
and assistance to this Committee and the Congress in general. 
So we welcome your testimony now.

TESTIMONY OF EILEEN R. LARENCE,\1\ DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Larence. Thank you, sir. Mr. Chairman and Members of 
the Committee, I am pleased to be here this morning to 
summarize a report released today on the Federal Government's 
use of the terrorist watch list to screen individuals for 
possible threats to homeland security. As you acknowledged 
already, unlike September 11, 2001, when agencies generally did 
not share information on known or suspected terrorists, our 
work shows that now the Terrorist Screening Center maintains 
one master repository of records on individuals with real or 
potential ties to terrorism. Agencies use the list to, for 
example, screen people applying for a visa, crossing through 
ports of entry into the country, or stopped for traffic 
violations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Larence appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    Our work also shows that agencies find the terrorist watch 
list to be an important counterterrorism tool, but we have 
found that it could be strengthened by addressing potential 
security vulnerabilities, using all appropriate screening 
opportunities, and providing for greater accountability and 
effectiveness.
    In our report, we address several fundamental questions. 
First, how do people get on and off the list? Intelligence 
agencies, the FBI, and other Federal agencies nominate 
individuals to the watch list using a relatively low bar 
because they want to make certain they do not miss any threats. 
Generally, agencies determine whether the information available 
on an individual provides a reasonable suspicion that the 
person has known or potential links to terrorism. Sometimes 
agencies have limited information and so must use their 
subjective judgment to determine who to list. To help guide 
these decisions, agencies use criteria and have review 
processes. For example, according to the FBI, generally any 
person subject to a counterterrorism investigation is put on 
the list after going through a formal review and approval 
process. If the investigation does not show a terrorist threat, 
as defined by Attorney General guidelines, the person is to 
come off the list.
    We do not know how the intelligence community makes such 
decisions because, in part, the CIA chose not to discuss this 
with us. Officials from both the National Counterterrorism 
Center that receives and forwards to the Terrorist Screening 
Center all nominations with international links to terrorism as 
well as the Screening Center itself said they review 
nominations to ensure there is a nexus to terrorism and have 
criteria to do so. While the Terrorist Screening Center reports 
deleting some 100,000 total records from the watch list so far, 
as you noted, it continues to grow significantly.
    The second question we answered is: How often have agencies 
encountered people on the list, and what has happened to them? 
As of May, airlines or agencies matched the names of travelers 
with names of people on the watch list about 53,000 times, 
although they matched some people more than once. Most matches 
were within the United States by State and local law 
enforcement or other government agencies. Individuals were 
sometimes arrested or denied a visa, boarding an aircraft, or 
entry into the country. But most often they were questioned and 
released because the derogatory information on the person did 
not show a legal basis, such as a criminal violation, to take 
any other action.
    Agency officials said that they use information collected 
during questioning to assess the threat posed by the 
individual, to track the person's movement, and to update 
intelligence or investigation files. And the Terrorist 
Screening Center shares information on encounters daily through 
a reporting process.
    On a related note, our prior work that we issued in a 
report in September 2006 showed that agencies were almost as 
often mistakenly identifying and stopping, questioning, and in 
some cases searching individuals who are not the person on the 
watch list but who unfortunately have a name similar to someone 
on the list. We reported why this happens, how this is being 
addressed, and what redress is available to these individuals, 
and I would be glad to discuss that work further.
    The third question our report today addresses is whether 
there are potential security vulnerabilities in agency 
screening processes. Agencies do not check against all names on 
the watch list. According to the Terrorist Screening Center, 
this can be a vulnerability, or at least a missed opportunity 
to collect information. Rather, the center sends subsets of the 
watch list to other information systems that agencies use to 
screen individuals depending on the agency's mission or 
operational capabilities. For example, Customs and Border 
Protection maintains an information system it uses to check all 
travelers, including U.S. citizens, for criminal or immigration 
violations or other concerns before they enter the country. 
Because of this broad mission, the Terrorist Screening Center 
sends CBP the highest percentage of watch list records to use 
during its screening.
    In contrast, airlines receive fewer names to screen 
passengers using the No Fly List or Selectee List. According to 
TSA, this is because its mission is transportation safety, not 
intelligence or investigations. And nominations to these two 
lists must pass a higher bar or more stringent criteria 
established by the Homeland Security Council, such as posing a 
threat to civil aviation.
    In addition, TSA requires that watch list records used for 
screening contain sufficient identifying information, but not 
all watch list records do so, and so these records are not 
passed to the airlines for screening. This is also the case for 
State and local law enforcement.
    TSA and FBI officials told us that the requirement for full 
information and records is to minimize the times people are 
misidentified and that screening against all names on the list 
would not necessarily result in increased security, but they 
did not provide the basis for their position; therefore, we 
continue to recommend that both agencies assess the extent of 
vulnerabilities in their screening processes and address them.
    Agencies also acknowledged that individuals on the watch 
list have passed undetected through their screening, but they 
said they are taking steps to address this problem. For 
example, CBP has cases of people on the watch list who were not 
identified until they had entered the country, but it is 
working on corrective actions.
    Likewise, as noted in your opening statements, individuals 
on the No Fly List have boarded aircraft, and sometimes flights 
had to be diverted. Agencies know this because for 
international flights into the United States, Customs and 
Border Protection screens all passengers a second time after 
the airlines to determine if the passengers can enter the 
country. To do this screening, CBP needs passenger data that 
currently is not sent to CBP in time to screen before a flight 
departs. A new rule in February will require that the data be 
provided to CBP sooner, which could help to identify 
individuals on the No Fly List before planes are airborne.
    It is important to note that there is no such second 
screening on domestic flights, but considering such a process 
would require assessing impacts on privacy and air travel, and 
TSA's new Secure Flight passenger pre-screening system, once 
implemented, may help to alleviate this concern.
    Finally, our work showed that the Federal Government has 
not identified and implemented all possible terrorist screening 
opportunities as mandated. The State Department is pursuing 
opportunities with some foreign partners, the Terrorist 
Screening Center is entering agreements with some agency 
components, and DHS is working on guidelines to help the 
private sector owners and operators of critical infrastructure 
screen employees to see if they pose threats. But we have 
recommended that all appropriate screening opportunities be 
identified and implemented and that DHS complete and implement 
the private sector guidelines, and the agency has agreed with 
these recommendations.
    In conclusion, overall GAO's findings stem in part from the 
fact that while each agency owns a parochial piece of the watch 
list process, no one entity is accountable overall for 
resolving interagency conflicts, addressing vulnerabilities, 
monitoring results, and ensuring that the list is working as 
intended. Furthermore, the government does not have an up-to-
date strategy and implementation plan with a recommended 
governance structure to provide for the most effective watch 
list screening. The President tasked DHS to work with relevant 
agencies to develop these plans. DHS said it submitted them in 
November 2004. The Homeland Security Council did not approve 
and implement the plans, however. We were not given copies of 
the plans to review or the opportunity to discuss this issue 
with the Homeland Security Council. So we have recommended that 
DHS update and resubmit these plans and that the Assistant to 
the President for Homeland Security and Counterterrorism ensure 
that they are implemented and that the governance structure 
agencies recommend be given the responsibilities and 
authorities needed to manage and be held accountable for 
screening governmentwide. DHS agreed to its recommendation, but 
the White House chose not to respond to our report.
    Mr. Chairman, that concludes my statement, and I would be 
happy to answer any questions.
    Chairman Lieberman. Thanks very much, Ms. Larence, for an 
excellent report. I appreciate the question you posed at the 
end and really the challenge, and we will want to hear from the 
other witnesses about that, about accountability and 
responsibility here.
    Glenn Fine is the Inspector General of the Department of 
Justice, familiar to us, even respected by us. Thanks for being 
here.

  TESTIMONY OF HON. GLENN A. FINE,\1\ INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Fine. Thank you, Mr. Chairman, Senator Collins, and 
Members of the Committee. Thank you for inviting me to testify 
on the development and status of the terrorist watch list 
screening system.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fine appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    For the past several years, the Department of Justice 
Office of the Inspector General (OIG) has examined the work of 
the Terrorist Screening Center (TSC), a multi-agency effort 
administered by the FBI. Created in 2003, the TSC integrates 
U.S. Government terrorist watch lists into a consolidated 
database and provides 24-hour-a-day, 7-day-a-week responses to 
Federal, State, and local governments to assist in screening 
for individuals with possible ties to terrorism. Prior to the 
establishment of the TSC, the Federal Government's terrorist 
screening system was fragmented, relying on at least a dozen 
separate watch lists maintained by a variety of Federal 
agencies.
    In June 2005, the OIG issued our first audit of the TSC's 
operations. This audit found that the TSC had made significant 
strides in developing a consolidated terrorist watch list 
database. But we also found weaknesses in various areas of TSC 
operations, including that the TSC had not ensured that 
information in the consolidated database was complete and 
accurate.
    Last month, we completed a follow-up review examining the 
TSC's progress in improving its operations since our 2005 
audit. The recent audit found that the TSC has continued to 
make significant progress in important areas. However, we also 
concluded that the TSC's management of the watch list continues 
to have significant weaknesses and that the information in the 
watch list database was not complete or fully accurate.
    These weaknesses can have enormous consequences. 
Inaccuracies in watch list data increase the possibility that 
reliable information will not be available to front-line 
screening agents, which could prevent them from successfully 
identifying a known or suspected terrorist. Furthermore, 
inaccurate watch list information increases the chances of 
innocent persons being stopped or detained because of 
misidentifications.
    For these reasons, we believe it is critical that the TSC 
and the agencies providing watch list data to the TSC further 
improve the accuracy of the information. In short, our 
September 2007 audit credited the TSC for improving its 
operations. It has enhanced its efforts to ensure the quality 
of watch list data, increased staff assigned to data quality 
management, and developed a process and a separate office to 
address complaints by persons seeking redress related to 
terrorist watch list screening. However, we also determined 
that the TSC needs further improvement. I would like to make 
five observations about these needed improvements.
    First, the TSC still maintains two versions of the watch 
list database. While the TSC is developing an upgraded, 
consolidated database that will eliminate the need to maintain 
parallel systems, the two databases were not identical in 
content when we tested them, which they should be. In addition, 
the number of duplicate records in the TSC database has 
significantly increased.
    Second, we found that not all watch list records were being 
sent to downstream screening databases. We discussed this issue 
with TSC officials, who agreed with our findings and began 
correcting those omissions.
    Third, our review found that the TSC did not have a process 
for regularly reviewing the contents of the consolidated 
database to ensure that all outdated information is removed, as 
well as to affirm that appropriate records are watch-listed.
    We concluded that the TSC needs to further improve its 
quality assurance efforts for ensuring the accuracy of the 
watch list records. Since our last report, the TSC has 
increased its quality assurance efforts and implemented a data 
quality improvement plan. In general, we believe that these 
actions are positive steps. We also recognize that it is 
impossible to completely eliminate the potential for errors in 
such a large database. However, we identified continuing 
inaccuracies in records that had undergone the TSC's quality 
assurance processes.
    For example, the TSC completed a special quality assurance 
review of the No Fly List, which dramatically reduced the 
number of records on the list. But our examination of the TSC's 
routine quality assurance reviews revealed continued problems. 
Specifically, we examined 105 records subjected to the routine 
quality assurance review and found that 38 percent of these 
records continued to contain errors or inconsistencies that 
were not identified through the routine quality assurance 
efforts. Thus, the TSC continues to lack important safeguards 
for ensuring data integrity, including a comprehensive protocol 
outlining the quality assurance procedures and a method for 
regularly reviewing the work of TSC staff to ensure 
consistency.
    Fourth, we found that the TSC's efforts to resolve 
complaints from individuals about their possible inclusion on 
the watch list have improved since our previous audit, and the 
TSC has created a dedicated unit to handle redress complaints. 
However, the TSC's redress activities were not always timely. 
Moreover, a high percentage of complaints requiring 
modification or removal is a further indicator that watch list 
data needs continuous monitoring and attention.
    Fifth, we found that the TSC does not have a policy or 
procedures to proactively use information from encounters with 
individuals to reduce watch list misidentifications. 
Considering that nearly half of all encounters referred to the 
TSC Call Center are negative for a watch list match, we 
recommended that the TSC consider misidentifications a priority 
and develop strategic goals and policy for mitigating 
misidentifications, particularly for individuals who are 
repeatedly misidentified.
    In total, our report made 18 recommendations to further 
improve the TSC's watch-listing process. These recommendations 
include making improvements to increase the quality of watch 
list data; revising the FBI's watch list nominations process; 
and developing goals, measures, and timeliness standards 
related to the redress process. In response, the TSC agreed 
with the recommendations and stated that it would take 
corrective action.
    Finally, I want to mention a separate audit that we are 
currently conducting to examine the specific policies and 
procedures of Department of Justice components for nominating 
individuals to the consolidated watch list, which is a very 
important issue. We are conducting this review in conjunction 
with other Intelligence Community OIGs, who are examining the 
watch list nomination process in their agencies. These OIG 
reviews are being coordinated by the OIG for the Office of the 
Director of National Intelligence.
    In conclusion, the TSC deserves credit for creating and 
implementing a consolidated watch list and for making 
significant progress in improving the watch list and screening 
processes. However, our reviews have found continuing 
weaknesses in some of those processes. We believe it is 
critical that the TSC further improve the quality of its data 
and its redress procedures. Inaccurate, incomplete, and 
obsolete watch list information can increase the risk of not 
identifying known or suspected terrorists, and it can also 
increase the risk that innocent persons will be repeatedly 
stopped or detained. While the TSC has a difficult task and has 
made significant progress, we believe it needs to make 
additional improvements.
    That concludes my statement, and I would be pleased to 
answer any questions.
    Chairman Lieberman. Thanks very much, Mr. Fine, for an 
excellent statement and for your continuing interest in this 
subject, which we all want to get right and want to be fair.
    The next witness is Leonard Boyle, Director of the 
Terrorist Screening Center. It is a personal pleasure for me to 
welcome Mr. Boyle here because he comes to this position having 
previously served with honor and effect as the Commissioner of 
Public Safety of the great State of Connecticut. We welcome 
your testimony.

TESTIMONY OF LEONARD C. BOYLE,\1\ DIRECTOR, TERRORIST SCREENING 
  CENTER, FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF 
                            JUSTICE

    Mr. Boyle. Thank you very much, Chairman Lieberman, thank 
you for those kind words, Senator Collins, and Members of the 
Committee. Thank you for the opportunity to address the 
Committee today on these two important reports that have been 
issued.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Boyle appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    As both reports note, the Terrorist Screening Center plays 
a critical role in the government's multi-layered strategy to 
prevent another terrorist attack on the United States. That 
multi-layered strategy calls for, in the first instance, every 
effort to prevent a potential terrorist from leaving his or her 
country of origin.
    To that extent, the Terrorist Screening Center, having 
created the Terrorist Screening Database, sends to the State 
Department a significant number of identities of persons who 
may be seeking to obtain a visa to enter the United States. 
Because of the work that has been done by the TSC, all consular 
officers around the world now have access to the U.S. 
Government's best understanding, both the intelligence and law 
enforcement community, of those who pose a terrorist threat to 
the United States. Every consular officer, in considering a 
visa application, can query the database and use any 
information that is found there as one factor in determining 
whether that particular person ought to be granted a visa to 
enter the United States.
    The second phase of that multi-layered strategy is for 
persons who are trying to enter the United States at our 
borders, for our Customs and Border Protection agents to have 
access to a similar set of information, slightly broader than 
what is given to the State Department, which is tailored to 
meet the needs of Customs and Border Protection so that a CBP 
agent can make the best informed determination as to whether he 
should grant a person access to the United States. He queries 
the IBIS or TECS system, which is supplied by the Terrorist 
Screening Center, for a determination as to whether that 
person, who is seeking entry to the United States, has been 
identified as a known or suspected terrorist.
    The third level of protection is within our borders. If a 
person does manage to get into the United States, or is already 
here, and is in the view of the law enforcement community or 
the intelligence community a potential terrorist threat to our 
Nation, information is now made available to all State, county, 
municipal, and tribal police officers throughout the United 
States, a force multiplier of about 750,000 law enforcement 
officers that did not exist prior to the creation of the TSC.
    While law enforcement officers did have access to Federal 
databases regarding certain types of suspected problem persons, 
they did not have access to the intelligence community's 
assessment of known and suspected terrorists. They do now.
    Chairman Lieberman, in your earlier remarks, you made 
reference to two of the September 11, 2001, hijackers. I would 
also cite a particular example. On the morning of September 9, 
2001, a State trooper stopped a young man who was traveling 
north on I-95, did all the appropriate actions, including run 
that man's name through the National Crime Information Center, 
found no negative or derogatory information. The trooper did 
his job and sent that person on his way. Two days later, that 
person, Ziad Jarrah, and four of his co-conspirators hijacked 
United Airlines Flight 93 and, but for the actions of some very 
brave and heroic people, would have probably crashed that plane 
into some significant national asset.
    That is the type of information that is now available to 
all State, county, municipal, and tribal police officers as a 
result of the work that is being done by the TSC.
    That being the case, of course, we will not be satisfied 
until we are certain that we have the best, most effective, and 
most accurate watch list possible. And to that end, we welcome 
the recommendations that have been made by the Office of the 
Inspector General as well as by the Government Accountability 
Office. We are using those reports as a road map to improve the 
watch list, to make our processes better.
    I think a fair assessment of what the TSC has done in 3\1/
2\ years is that it has achieved with remarkable success the 
basic objectives that were tasked to it by HSPD-6, that is, the 
creation of a unified watch list, the creation of a means to 
update that watch list on a daily basis, the creation of a 
system to export those lists to Customs and Border Protection, 
the State Department, State and municipal law enforcement, as 
well as the TSA, to protect our flying public and also to 
create a call center, a 24-hour-a-day, 7-day-a-week call 
center, so that anytime any of those screening agents or law 
enforcement agents encounters a known or suspected terrorist, 
they call the Terrorist Screening Center, they do not get a 
busy signal, and they do not get a recording. They get a human 
being who answers that phone, who has full access, electronic 
access, to all of the underlying derogatory information about 
the person who has been encountered.
    We have also spent a great deal of effort reaching out to 
our foreign partners in satisfaction of the goals tasked to us 
by HSPD-6. We now have six agreements with foreign partners. 
Spain recently publicly announced that we had executed an 
agreement with Spain to share watch-listing information, and we 
have numerous discussions going on with our foreign partners 
around the world to try to increase the amount of sharing that 
we have with our foreign partners. So we are, I believe, in a 
position where we are now ready, having satisfied those basic 
objectives, to refine the watch list and make it better.
    I would address just a couple of matters that have 
previously been raised, and the first has to do with redress. 
We understand that our obligation is to protect the safety of 
this Nation, but to do so in a way that protects and preserves 
civil liberties and privacy. To that end, as a result of the 
recommendations that were made by the OIG in 2005, the TSC has 
created a redress office staffed by seven people, dedicated 
employees who review every matter that comes to our attention. 
To date, they have reviewed close to 500 separate matters that 
have been brought to us. They do a complete de novo review of 
the watch-listing status of any person who is referred to us to 
make an independent determination as to whether that person is 
properly listed or not.
    We also have put in place a number of processes to address 
the concerns that have been raised by the Office of Inspector 
General to ensure that we are now, in fact, consolidating both 
components of our system so that there is a single, unified, 
one-component system of our watch list. We have set up a daily 
reconciliation process to make sure that those two components 
every day are reconciled. We also have added a compliance 
officer to make sure that we have appropriate standard 
operating procedures in place. And we have also brought on a 
data integrity officer, a senior official from the Department 
of Homeland Security, to make sure that we do not have gaps 
within our systems so that we are properly structured to meet 
our needs, to meet our requirements, and to meet the mission 
that has been set out before us.
    So, again, I thank you for the opportunity to address you 
today, and I am happy to answer any questions that members 
might have.
    Chairman Lieberman. Very good. Thanks for that excellent 
testimony, Mr. Boyle. We will have some questions for you.
    Our final witness on the panel this morning is Paul 
Rosenzweig, who is the Deputy Assistant Secretary for Policy at 
the U.S. Department of Homeland Security. Welcome.

       TESTIMONY OF PAUL ROSENZWEIG,\1\ DEPUTY ASSISTANT

       SECRETARY FOR POLICY, U.S. DEPARTMENT OF HOMELAND

                            SECURITY

    Mr. Rosenzweig. Thank you very much. Thank you, Senator 
Lieberman and Senator Collins, for inviting me. It is a 
particular pleasure to be here today. Though I have been with 
the Department 2 years and have testified nearly a dozen times, 
this is my first opportunity to actually testify in front of my 
home Committee in the Senate.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rosenzweig appears in the 
Appendix on page 71.
---------------------------------------------------------------------------
    Chairman Lieberman. There is a story there.
    Mr. Rosenzweig. I know it very well.
    Chairman Lieberman. We tried.
    Mr. Rosenzweig. It is especially a pleasure because of the 
constructive and thoughtful nature of the discussion we are 
having today. I would have a great deal of difficulty 
disagreeing with any of the comments and recommendations that 
we have heard from the General Accounting Office or with any of 
the statements that have gone before. As Senator Collins so 
aptly said, it is a big system, and that makes it imperfect to 
some degree. And our goal is to make it as close to perfect as 
we can, recognizing that it is an unachievable objective.
    I speak not as a nominator to the TSC because DHS puts very 
few people onto the watch list but, rather, as a consumer of 
its product. And as a consumer, we are as troubled by errors in 
the system when they exist as anybody, simply because they are 
an annoyance to the traveling public with whom we deal every 
day; more importantly, they are a waste of resources. For every 
time that we look at somebody who is not the right person, that 
is time not spent looking in the right place.
    I think it is fair to say that, by and large, we have had a 
number of successes and much work needs to be done. Let me 
briefly give you a sense of some of those successes.
    We have put in place a layered system for checking people 
as they arrive at the border, to take but one example. That 
includes not only the Department of State Visa Lookout System, 
but also the export of the No Fly and Selectee Lists to 
international airlines for checking of those who are traveling 
to the United States. It includes capture of data on all 
travelers to the United States, alien and U.S. citizens, 
through the Advanced Passenger Information System and the 
Passenger Name Records. And, finally, of course, it includes 
the final check at the port of entry by Customs and Border 
Protection officers provided with the watch list to make a 
determination, as Mr. Boyle said, given the best information 
available whether or not a particular individual should be 
admitted.
    We have also had great success and made great strides, I 
think, in improving our redress process. Mr. Boyle has 
described some of the improvements that were made at TSC. 
Within DHS, we have developed the Traveler Redress Inquiry 
Program (TRIP) in partnership with the Department of State, 
which is a one-stop shop for people to enter the system to seek 
redress and, if appropriate, to receive notifications from us 
that they get put on a cleared list, in effect.
    We have also developed at the ports of entry themselves 
something we call the Primary Lookout Override (PLOR) system, 
which means that we can make corrections directly on the 
screens in front of us and ensure that once we have identified 
somebody as a misidentification, a false positive, he never 
again gets troubled. And that gets propagated through the 
system.
    So we have made great strides, I think, but as you said, 
there is much work to be done. You mentioned, Senator Collins, 
the unfortunate visits of several airlines to Bangor. I am 
happy to say that we have not had any in 2 years, and that is 
part of our ongoing process. There are two other pieces that 
are going forward that should come online in the next months to 
year that will improve that even further. One is, as Ms. 
Larence noted, the development of the Advance Passenger 
Information System (APIS) quick query system. That will require 
the transmission of passenger information to CBP for checking 
at the National Targeting Center against the Terrorist 
Screening Database before the airplane takes off from a foreign 
country. It will allow that transmission up until the doors are 
actually closed, but will require it before wheels-up. So we 
will be doing that checking.
    We will also be developing a system called Secure Flight, 
which will take into the TSA the watch list name matching for 
the No Fly and Selectee lists. As you probably know, today we 
export that list to the airlines, and a lot of the problems we 
have is simply because there are 63 different airlines that fly 
here, and they do it 63 different ways. That creates, at worst, 
inconsistency if not error. We have published a Notice of 
Proposed Rulemaking to anticipate bringing that on board into 
the United States sometime late this year or early next year.
    I am constrained to mention at this juncture that we are 
resource constrained in doing that. We have requested $53 
million in the President's budget for that effort. The Senate 
appropriations mark is $28 million, and that will, of course, 
delay that implementation going forward. But, nonetheless, 
those two pieces of the puzzle ought to improve our ability a 
great deal.
    But the final thing that I would say is that what we have 
come to recognize as consumers is that there are inherent 
limitations to watch list name matching by themselves. The case 
of the Mexican gentleman with tuberculosis that you mentioned 
is an example of that, where we can only work with as much 
information as we have, and if the information is incomplete or 
inaccurate, that defeats to some degree our ability to conduct 
watch list name matching. What we need to do and the other 
piece of the puzzle is to go beyond watch list name matching to 
enhance our ability to identify people through secure 
identification documents, to use the information we collect 
about individuals, to identify unknown names through link 
analysis--people traveling together where one is known and one 
is not known, for example--and, finally, of course, through the 
US-VISIT program to develop enhanced biometric capabilities so 
that the name does not matter because the fingerprint never 
changes while the names may. All of those taken together will 
further enhance our ability.
    Now, we will never get away from a name-based watch list 
matching system because for many people who are deemed threats 
to us we do not have the biometric identification, we do not 
have the fingerprint. We have the names and the many aliases 
that are also records in the Terrorist Screening Database 
(TSDB). But as we continue to put on these layers, we will, I 
believe, enhance our ability to identify correctly those who 
pose a threat and reduce the instances in which we make 
mistakes or errors.
    Taken together, I think that paints a good picture of how 
we at DHS are using the Terrorist Screening Database. We have 
had a number of successes. Last year, at the borders, 5,900 
positive matches against the watch list--not all of those 
denied entry, but all of those people of interest who I am glad 
we identified before they entered the United States.
    We can do better for sure, but I share with Mr. Boyle--and, 
I take it, with Ms. Larence and Mr. Fine--the sense that 
between where we were on September 10, 2001, and where we are 
now, we have made great strides. More work needs to be done, 
but the improvement is quite noticeable.
    I thank you for your attention, and I, too, look forward to 
answering your questions.
    Chairman Lieberman. Thanks, Secretary Rosenzweig. I 
appreciate the testimony very much. We are going to do a 5-
minute round so all four of us can have a chance to ask some 
questions before the votes go off.
    Mr. Boyle--and I am having a hard time not calling you 
Commissioner Boyle--let me ask you to comment on the growth in 
the size of the watch list. Of course, as I said in my opening 
statement, this is good news, assuming all those names are 
correct, but the database has gone from 158,000, GAO reports, 
in June 2004 to 860,000 today, and it is going up at around 
20,000 records per month. And I know there is a process by 
which they got on that list.
    As it approaches 1 million, is it reasonable to assume that 
there really are 1 million people who are known or suspected 
terrorists?
    Mr. Boyle. No, and for context, the watch list or the 
Terrorist Screening Database does not reflect some 800,000 
human beings.
    Chairman Lieberman. So explain that. I understand that.
    Mr. Boyle. Sure. We have approximately 860,000 records in 
the Terrorist Screening Database. We create a record for any 
identification that a person might use if he or she is trying 
to enter this country or is trying to obtain documents in 
support of terrorist activity. So, for example, if a person 
uses the name Len Boyle and has at various times used three 
separate dates of birth, that will create three separate 
records in the Terrorist Screening Database.
    Chairman Lieberman. OK.
    Mr. Boyle. We have some persons for whom we have 50 or more 
records, as the GAO report points out.
    Chairman Lieberman. Right.
    Mr. Boyle. So the actual number of human beings reflected 
in the database is far fewer than 800,000. I cannot give you an 
exact number because, in fact, we do not know for sure. Some 
people actually successfully create an entire separate 
identity.
    Chairman Lieberman. Yes.
    Mr. Boyle. So even if we looked at the database, we might 
see what appear to be two completely separate identities that 
reflect but one person. So the number is far fewer.
    Another thing I think is very important for the public to 
understand is that about 95 percent of the database consists of 
non-U.S. persons.
    Chairman Lieberman. Right.
    Mr. Boyle. That is, people who are not U.S. citizens or who 
have been granted permanent resident alien status.
    Chairman Lieberman. And you are getting those from the 
intelligence community, both ours and foreign intelligence, 
cooperating agencies?
    Mr. Boyle. Most often, yes, sir, and they are coming from 
hot spots around the world.
    Chairman Lieberman. Right.
    Mr. Boyle. Areas of strong anti-American sentiment, and the 
theory behind watch-listing those persons is if there is a 
reasonable suspicion that this person has been associated with 
terrorist activity, perhaps has provided funding to a terrorist 
organization or has attended a terrorist training camp, we want 
that person listed in the database so that if next week, next 
month, next year that person tries to enter the United States, 
Customs and Border Protection and the State Department are 
going to be able to look at that person, know what we know 
about him, what the intelligence community knows about him, and 
make a determination.
    Chairman Lieberman. OK. So, bottom line, not all the people 
on there are there with full justification but that there is a 
reason why everyone who is on there is on there, and you are 
the man who sees it all. I presume you would say that, to the 
best of your knowledge, most of the names on there deserve to 
be on there.
    Mr. Boyle. Yes, sir. Using the reasonable suspicion 
standard, those names are vetted first by the nominating 
agency, then by NCTC, then by us to make sure that there is a 
reasonable suspicion of a nexus to terrorism.
    Chairman Lieberman. Give me your response to the question 
that Ms. Larence raised at the end, which is that the TSC is 
really doing its job, but that there is no one in the Federal 
Government to oversee the operation of the watch lists overall 
to make priority decisions about investments or even 
accountability. How do you respond to that? And if you think 
she is right, should you do that?
    Mr. Boyle. Well, as the Members of the Committee are aware, 
HSPD-11 designates the Secretary of the Department of Homeland 
Security to have overarching responsibility for watch-listing 
in general. We, at the Terrorist Screening Center, work through 
our governance board; we work very closely with DHS. But we 
are, I would put it, more the nuts and bolts of watch-listing 
and screening rather than the overarching strategic approach to 
screening.
    Chairman Lieberman. Would you say the Secretary of Homeland 
Security is the one responsible for that overarching view?
    Mr. Boyle. Yes, sir, and we work very closely with DHS in 
accomplishing those objectives.
    Chairman Lieberman. One of the things that really thrills 
me most about what you have reported today is the access that 
local, State, tribal, etc., law enforcers have to this 
terrorism database because it vastly expands our potential to 
catch these people before they act. Are the State, local, 
county, and tribal law enforcers using it?
    Mr. Boyle. They are using it, and they have been fantastic 
partners with us, and we are continuing our outreach with State 
and local law enforcement. One of the things that we are going 
to be doing at the TSC over the next several months is 
providing State and local law enforcement with a daily report 
showing the encounters with suspected terrorists around the 
country so that a police chief in Minneapolis will know how 
many encounters occurred in his general area or the new 
Commissioner of the Connecticut Department of Public Safety 
will know how many encounters occurred in Connecticut. They 
have been wonderful partners.
    Chairman Lieberman. OK. Thanks very much. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Commissioner Boyle--I will use that name as well.
    Mr. Boyle. Thank you.
    Senator Collins. I could not help but think that, as you 
described the incident that I remember so well from the 9/11 
Commission's report, had that State trooper had access to the 
kind of information in the system today, that individual 
terrorist would have been stopped and many of the others would 
have been as well. So I want to commend all of you for the work 
that you are doing even as I ask some questions about some 
concerns that I have.
    Mr. Secretary, this morning we received information from 
CBP that the original information that it had received on the 
Mexican national with TB on April 16 was not actually an alias, 
which had been the agency's justification for not stopping the 
individual in the first place. What we found is that, in fact, 
CBP and the system had the individual's middle name, his two 
hyphenated last names, and a date of birth that had an error in 
it, but the error was corrected the very next day.
    So the information and the lookout was entered into the 
computer system on April 16, and yet this individual was able 
to cross the border an astonishing 21 times. And it was only 
when his Mexican doctor confiscated his visa and turned it over 
to U.S. authorities that he was stopped.
    That raises real concerns to me about the effectiveness of 
the computerized system and the name-matching process, and 
indeed, in the report that GAO did, it found that individuals 
were able to pass despite being on the watch list due to not 
only errors in the computer system but also that the name-
matching process is not very sophisticated.
    If an individual with a dangerous strain of TB can cross 21 
times after being put on the list, that raises a lot of 
concerns to me about whether you are capable of stopping 
terrorists or other public health threats when there is a 
slight variation in the name.
    Mr. Rosenzweig. Thank you for the question, and it actually 
allows me, if you will permit me, to explain the watch list 
name-matching algorithms we use in a little bit of detail 
because it is important to understand. And to explain, I will 
use myself as an example because we are not publicly discussing 
this gentleman's name.
    My name is Paul Samuel Rosenzweig. My mother's maiden name 
is Hahn. And my birth date is actually 10/31/59, but let's 
assign me 10/8/59 as a birth date. So when we do a name check 
against that, we use as a parameter the very first initial of 
my first name, my last name, and my date of birth. So I am P. 
Rosenzweig, 10/8/59, in my hypothetical example.
    If the information we get from another source, in this case 
CDC from the Mexican health officials, is different from that, 
the question is how closely that match exists. The individual 
that we are talking about used his second name and flipped his 
two last names, so he would have been in my hypothetical 
example Samuel Rosenzweig Hahn, and he also flipped at least 
initially the date of birth, from 10/8 to 8/10. So the match 
algorithm would have been S. Hahn, 8/10/59, matched against P. 
Rosenzweig, 10/8/59. All three of the parameters that we search 
against miss. And what happened on the very first day was we 
used those parameters, and we said this person is not in the 
system, something must be wrong.
    Now, in order to find further information about a person, 
we start by suppressing some of the information. We say maybe 
there is a mistake in the date of birth, so you take that out 
and you ask for all the S. Hahns. But, of course, that does not 
catch P. Rosenzweig either because that does not work.
    Then you say let's get rid of the first name, S., and catch 
all of the Hahns. That, too, would not catch a person whose 
last name is not Hahn but is, in fact, Rosenzweig.
    It is only when you start asking all people who might have 
the name in any particular order--because we do not know the 
nature of the mistake up front--that is, Hahn or Rosenzweig or 
S. or that date of birth, that I would pop up.
    Now, that, too, does not actually sound like too much of a 
problem for us to do a check, but then we actually have to 
resolve those hits. And we get approximately 1 million land 
border crossings a day, and though Hahn and Rosenzweig are 
relatively uncommon names, this individual had a more common 
set of names.
    So to give you an example, and, again, using a hypothetical 
example, on Monday of this week J. Rodriguez, picking a 
relatively common Hispanic name, there were 816 crossers with 
that name. Now, if you suppress the first initial and just went 
for Rodriguez, you probably do something like 20 times that, or 
16,000. And if you did Rodriguez plus another common Hispanic 
name like Gutierrez, to pick our Commerce Secretary, as either/
or, you would maybe get 30,000. I have not run the numbers, but 
that is a rough order of magnitude. That 30,000, that is 29,999 
false positives for sure, plus, of course, this individual does 
not cross every day, and that is repeated every day in the 
system.
    We have had many complaints that the lines on the Southern 
border are already too long. As the type of information we get 
is less and less accurate and we widen the field to make an 
examination based upon the name check, we get more and more 
people who will be overwhelming our secondary inspection 
capabilities, extending the line beyond belief and 
inconveniencing lots of people who are not matches for any of 
those.
    In retrospect, it is easy to understand that we should have 
just switched the matrilineal and patrilineal names and dropped 
the first name and corrected the date of birth. But that is 
only because we know what the right answer is now. It is very 
hard. And I am happy to talk about it more when----
    Senator Collins. My time has expired.
    Mr. Rosenzweig. I am sorry.
    Senator Collins. But I appreciate the explanation. It is my 
understanding that the birth date was corrected very quickly, 
so it is not exactly the same as your hypothetical example, but 
I understand your point. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman.
    Chairman Lieberman. I bet there are not too many Testers 
coming in every day.
    Senator Tester. It makes me appreciate that my name is not 
John Smith. [Laughter.]
    I appreciate the work that each and every one of you folks 
do in your respective roles.
    I guess the first question is for Director Boyle, and it 
gets down to what the rules are for getting into the database. 
You had said 95 percent of the people are not U.S. citizens. Is 
that correct?
    Mr. Boyle. Roughly, yes.
    Senator Tester. So are the rules the same for folks that 
are not U.S. citizens and folks that are U.S. citizens for 
getting on that watch list?
    Mr. Boyle. The standard is the same, sir. It is a 
reasonable suspicion standard. Each agency may have its own 
protocol. For example, an FBI nomination comes about after an 
FBI case agent opens a preliminary inquiry or a case on 
terrorism, and that has to be consistent with the Attorney 
General's guidelines. But the reasonable suspicion standard 
applies across the board.
    Senator Tester. And 43,000 involved in those kind of 
suspicions or counterterrorism investigations?
    Mr. Boyle. I do not have the numbers in front of me, sir, 
but if that----
    Senator Tester. Well, that would be 5 percent of 860,000.
    Mr. Boyle. If that is the way the match works out.
    Senator Tester. A couple things, and I think the Chairman 
touched on one of them, and that is, in fact, does the county, 
city, highway patrol, and tribal police forces all have access 
to this information?
    Mr. Boyle. Yes, sir.
    Senator Tester. And they are all encouraged to use it.
    Mr. Boyle. Yes, they are.
    Senator Tester. And then you talked about seven employees 
dealing with 500 reviews on redress. How long has that board 
been in existence?
    Mr. Boyle. We created the redress group after the 2005 
report from the Office of Inspector General. I can get you the 
answer by turning around just briefly.
    Senator Tester. Well, I guess more specifically, it was 
created sometime in 2005.
    Mr. Boyle. Yes, sir.
    Senator Tester. So it has been in effect for a couple 
years?
    Mr. Boyle. That is correct, sir.
    Senator Tester. Are those 500 people, are the majority of 
them Americans or U.S. citizens? If you do not know that, you 
can give me----
    Mr. Boyle. I do not know. I am turning to our redress 
officer.
    Senator Tester. That would be good.
    Mr. Boyle. I do not have the answer to that.
    Senator Tester. And the other thing is you had mentioned 
that you felt that a majority of the people that were on that 
list were on that list--and make no mistake about it, mistakes 
can be made when you are talking about a list this size. In Mr. 
Fine's testimony, he said that 38 percent were errors or 
inconsistencies. Could you explain that, Mr. Fine? I mean, 
there seems to be some difference in opinion on the surface 
here.
    Mr. Fine. Well, we are not saying that those 38-percent 
people should not be on the list, but when we looked at a 
sample of 105 that had gone through the quality assurance 
review, we found errors in there--for example, the date of 
birth was wrong, incomplete, incomplete field, other errors, 
which showed that it was not complete and accurate, despite the 
fact that it had already gone through the quality assurance 
program. That gave us concern about the quality assurance 
program, and we wanted there to be more comprehensive protocols 
and testing of this quality assurance program to make sure that 
they were completely accurate.
    Senator Tester. I understand. Mr. Rosenzweig, you said that 
there were inherent limitations on the name situation, and the 
Chairman talked about Senator Kennedy being on the list at one 
point in time. What about the other side of the equation and 
you have somebody who gets off the list and just by 
happenstance there is a terrorist on the list that has the same 
name? What are the impacts there?
    Mr. Rosenzweig. Well, thank you for the question, Senator. 
Actually, what we are doing inside DHS--and it is parallel to 
things that TSC is doing--is we do not take the name off the 
list. We will, for example, issue somebody who has gone through 
the TRIP program a cleared number that is his kind of personal 
additional identification number. We leave his name on the 
list, but the addition of additional information means we can 
differentiate.
    Senator Tester. Can an individual within one of the 
agencies or in government place names on this watch list, or 
are there clear criteria, period, that are followed in every 
case?
    Mr. Boyle. There are clear criteria, sir. Any person who is 
being nominated to the Terrorist Screening Database who is 
suspected of being involved in international terrorism, that 
nomination has to be vetted through the National 
Counterterrorism Center, and the derogatory information 
regarding that nominee must meet the standards that are 
appropriate for inclusion on the list.
    Senator Tester. Thank you very much. Thanks for your 
answers.
    Chairman Lieberman. Thanks very much, Senator Tester. 
Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    It is interesting that we hear examples of anecdotal 
situations where people are on the list and somehow get through 
the system. We also hear similar examples of individuals that 
are on the list that should not be on the list and somehow have 
not been taken off the list. But the fact of the matter is that 
from what I hear today and read in the written testimony, we 
have made really outstanding and significant improvement in 
screening people and the sharing of information on the watch 
list, and I congratulate you.
    The thing that is of concern to me is that there are still 
some things that need to be done. Mr. Fine, do you have a term 
of office?
    Mr. Fine. No.
    Senator Voinovich. Are you out with the next 
Administration?
    Mr. Fine. I serve at the pleasure of the President. All IGs 
do, although if the President wanted to remove me, he would 
have to give the reasons why to both Houses of Congress. I 
would note that this Committee and Congress is considering 
amendments to the IG Act to create a term of office of 7 years.
    Senator Voinovich. Well, the point is that you will be 
around for a while. Ms. Larence, you will be around. Mr. Boyle, 
you will be out, I believe. [Laughter.]
    Mr. Rosenzweig, you will be out also. The real issue for me 
is the transformation of some really significant issues in 
terms of intelligence gathering for our people. And, by the 
way, I just recently met with the FBI Joint Terrorism Task 
Force in Cleveland, and they are doing a fantastic job. And the 
great response that I got from local government officials is 
that they are really sharing information, and they are sharing 
information well. In fact, local law enforcement is embedded at 
the FBI today. For a former mayor that lived in a town where 
the Federal agencies did not even talk to each other, the 
outlook is very promising. To see that kind of coordination and 
communications is just very exciting and comforting.
    But what I am concerned about is this: Does anyone have a 
strategic plan on how to remedy the things that you have 
pointed out? And is there an agreed upon metric to determine 
whether or not, in fact, they have accomplished it so that a 
year and a half from now, or more, we are not doing the same 
thing but with different players? Mr. Fine or Ms. Larence, are 
you going to be able to tell us whether or not they really have 
made changes in terms of the issues that you are concerned 
about?
    Ms. Larence. No, sir. That was the major finding in our 
report, that even though the President tasked DHS to work with 
all the agencies involved in screening from soup to nuts and 
put a plan together, including a recommendation about a 
governance board for this process, that has not been completed 
to date. I understand from the statement from the Homeland 
Security Council that DHS has agreed to put that plan together 
and submit that to the Homeland Security Council, and they have 
agreed to look at that issue and take action on it. But we are 
as concerned as you. You mentioned the growth of the watch 
list. Who is managing that? Who is asking those questions? In 
our conversations with the National Counterterrorism Center, 
they are expressing the same concerns about the growth of the 
list and our ability to manage that.
    GAO was the only organization for the first time that put 
together the outcomes of this process across the agencies and 
took a look and said what does that mean and is this process 
working as intended. And so unless the agencies and the White 
House make that happen, I am afraid not, sir; we will be back 
in a couple of years to discuss concerns again.
    Senator Voinovich. Well, from the point of view of this 
Committee, the issue we ought to be concentrating on is that a 
plan be put in place to implement GAO's recommendations. We 
must also implement metrics to determine whether or not the 
plan is being instituted so that we do not lose momentum during 
the change of administrations.
    Ms. Larence. Yes, sir, a plan, and also we are suggesting 
an entity be identified, and that could be an interagency 
governing council, that is given the responsibility and the 
accountability to watch this process from soup to nuts.
    Senator Voinovich. Mr. Boyle, if you are not getting 
cooperation from someone that you think you should have 
cooperation from, what do you do?
    Mr. Boyle. I go to the Director of the FBI or to the 
Secretary of the Department of Homeland Security, and the 
cooperation has never been a problem, sir. And with respect to 
your question about the recommendations, the Office of 
Inspector General made 18 recommendations to the Terrorist 
Screening Center. We have accepted all of them. We will be 
meeting with Office of Inspector General staff in early 
December. I expect that as many as six or more of those 
recommendations we can close out as having been satisfied. 
Others are more long term, and we will be presenting the Office 
of Inspector General with our long-term plan to address each of 
those matters.
    Senator Voinovich. Thank you. Mr. Chairman, the only thing 
that I would recommend is that either you and Senator Collins 
bring them in and see the plan or have another hearing.
    Chairman Lieberman. We will do one or the other, and thank 
you for focusing on this.
    Let me mention briefly how we are going to proceed. Senator 
Carper has yielded to Senator Warner for one question. Then 
Senator Carper will proceed. I will head over to vote with 
Senator Warner, leaving Senator Carper with really unlimited 
power for a few moments. And then he can recess the hearing, 
but then we will come back for a few more questions. It could 
take 20, 25 minutes before we come back, but hang around.
    Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Mr. Chairman. I thank my 
colleagues.
    We are privileged in the Commonwealth of Virginia to have 
the National Ground Intelligence Center, and I visit quite 
frequently, and they are on the cutting edge of biometrics. And 
it has come to my attention--I am not sure of the accuracy--
that the Terrorist Screening Center presently does not have a 
number of these capabilities, including the use of biometrics.
    Are you leveraging research and capabilities from other 
areas to incorporate it at the Terrorist Screening Center? Are 
you planning to get biometrics capabilities? Or do you think it 
should be made a part of the program? Please answer the 
question for the record.\1\
---------------------------------------------------------------------------
    \1\ The responses from Mr. Fine and Mr. Boyle appear in the 
Appendix on pages 278 and 291 respectively.
---------------------------------------------------------------------------
    Mr. Boyle. Yes, sir.
    Senator Warner. I will ask each of the witnesses to make a 
contribution. Thank you.
    Mr. Boyle. Biometrics will play a key role in----

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper [presiding]. I am going to ask you to 
withhold your answer at this time.
    Mr. Boyle. OK. But put it in the record?
    Senator Carper. If each of you would do that, it would be 
much appreciated. We have a vote on the way. We are voting on 
whether or not to order an up or down vote on the nomination of 
Leslie Southwick to serve on the Fifth Circuit Court of 
Appeals, and we have about 6 minutes to go. I do not want to 
miss that vote.
    I have a statement for the record. I will ask unanimous 
consent that it be entered into the record. Since there is no 
one here but me to object, I suspect it will show up in the 
record.
    [The prepared statement of Senator Carper follows:]
                  PREPARED STATEMENT OF SENATOR CARPER
    Thank you, Mr. Chairman.
    This is a very interesting hearing for me. My staff and I have 
spent a great deal of time over the past year or so learning a lot 
about the watch list process. We were doing this to help a constituent 
and a friend from Delaware who was having just a terrible time getting 
through airports.
    This gentleman has a name that I'm assuming is similar to a name 
that appears on one or more of the watch lists out there. Depending on 
who was screening him when he got to the airport, he might have to wait 
hours to get through security. I believe he also missed flights from 
time to time. I eventually had to go all the way to the TSA 
Administrator's office to set things right.
    I found this situation troubling not because it involved someone 
from Delaware, but because it told me that we're probably spending a 
lot of our time and resources inconveniencing innocent people. And time 
and resources are not unlimited, so we're probably missing 
opportunities to catch individuals who truly are worthy of our 
scrutiny.
    According to the GAO report that inspired this hearing, this is in 
fact the case. There have been a number of instances when individuals--
terrorists or suspected terrorists, I assume--have been able to board 
planes or to enter the country when they probably should not have been 
able to.
    I'm pleased that we were able to make the watch list system work 
better for my constituent in Delaware. It appears, however, that we 
have our work cut out for us if this system is going to be as effective 
as it needs to be.
    We need fewer false positives, of course, but it's more important 
that those who we rely on to make appropriate use of the terrorist 
watch lists--agencies like TSA, law enforcement, the airlines--are 
armed with the up-to-date and accurate information they need to make us 
safe.

    Senator Carper. I have two questions that I will ask each 
of you to respond to for the record. In fact, the first one, 
Secretary Rosenzweig, I will ask you to respond to it, and the 
second one, Ms. Larence, I will ask you to respond. First of 
all, to the Secretary, this is a question on a system called 
Secure Flight. I understand that the Department of Homeland 
Security has a system in the works called Secure Flight that at 
least some believe will more accurately screen individuals at 
the airports against terrorist watch lists. Explain to us how 
Secure Flight will reduce false positives and other screening 
issues that have been discovered over the years. And, further, 
I would ask when do you believe the system will be up and 
running and what is your Department doing to help airlines 
improve their screening processes in the meantime?\1\
---------------------------------------------------------------------------
    \1\ The response from Mr. Rosenzweig appears in the Appendix on 
page 305.
---------------------------------------------------------------------------
    Mr. Rosenzweig. It would be my pleasure.
    Senator Carper. We will give you a copy of it before you 
leave.
    And, Ms. Larence, you note in your testimony that the 
decision on whether or not to place someone on the watch list 
is often somewhat subjective. There are individuals apparently 
on the watch list who are terrorists, suspected terrorists, but 
there are also some there who are simply being investigated for 
some other reason. Are there clear enough rules out there for 
determining who should and who should not be on the list and 
who ultimately makes the decision and what does he or she base 
his or her decision on? You are the one who made that point. I 
believe that would be a question, I think, for the Secretary, 
and if you would respond to that for the record, I would be 
grateful.\2\
---------------------------------------------------------------------------
    \2\ The responses from Mr. Boyle and Mr. Rosenzweig appear in the 
Appendix on pages 292 and 311 respectively.
---------------------------------------------------------------------------
    With that having been said, we thank you for being here. We 
thank you for your testimony. And I am going to just say for 
now the hearing is in recess, but we are not adjourned, so hold 
on. Thanks very much.
    [Recess.]
    Chairman Lieberman [presiding]. The hearing will reconvene. 
Thank you for your patience. I hope that one or two other 
Members will come back because they indicated to me that they 
had some other questions.
    Let me go first to you, Ms. Larence, and this question of 
who has overall responsibility for, you might say, the 
strategic decisions related to terrorist screening in the U.S. 
Government. Mr. Boyle, as you heard, indicated that the 
Secretary of Homeland Security has that authority. There was a 
plan submitted, never adopted, by the Homeland Security 
Council. I am not clear exactly why that has not happened. Are 
you?
    Ms. Larence. No, sir. We actually met with each of the key 
players, and they gave us their perspectives on their role. The 
Director of National Intelligence staff obviously said they 
have a role in information and intelligence but not in 
screening operations, so they did not really think they were 
the appropriate person or organization to do that.
    Chairman Lieberman. Right.
    Ms. Larence. Likewise, TSC explained their role. So DHS was 
tasked with working with the agencies to develop the plan, but 
DHS was not tasked with being the overall entity that we are 
calling for. And so it is our understanding that one possible 
model that was suggested would be an interagency council with 
representatives from each of those key players in that 
screening process. TSC has a council like that already in 
existence to advise them on their piece of the watch list 
process. Our point, though, is such a council would need 
additional authorities to be able to have responsibility for 
intelligence operations and outcomes.
    Chairman Lieberman. And those authorities would be able to 
do what? Spell it out a little more.
    Ms. Larence. We think that somebody needs to be 
accountable, again, for really evaluating the watch list 
process, to make sure that, for example, they would answer 
questions about how are agencies making nominations, and are 
they doing that consistent with the right criteria. They could 
look at the screening across agencies to make sure that this is 
being done consistently. They could look at how the information 
is being used that is developed from the watch-listing process. 
And, most importantly, they could monitor the outcomes of the 
process to determine if it is complying with privacy issues, if 
we are getting the types of outcomes that we want, and how we 
can better manage misidentifications. And they could also help 
to make sure that people consistently apply new technical 
opportunities and tools such as new computer algorithms or more 
sophisticated search engines.
    Chairman Lieberman. Yes. Mr. Boyle, are any of those 
responsibilities ones that you believe that you carry out now? 
Or do you think that they really are in a different direction 
than what you have been doing every day?
    Mr. Boyle. Some of those fall pretty squarely, Senator, 
within what we are doing right now. For example, the algorithm 
project is something that we have been involved with. We are 
currently approaching the testing phase to try to change search 
algorithms so that the search engines that are being used 
across the communities are more finely tuned and attuned more 
specifically to the types of names that we are encountering in 
the process these days. So that is one example of a matter that 
we are intimately involved in. I consider that part of the 
tactics, if you will, of screening, the nuts and bolts that we 
are involved in, as is biometrics, which we are also involved 
with.
    Chairman Lieberman. Ms. Larence, do you reach a conclusion, 
based on all your knowledge of what is happening here, about 
what the best person, office, or group would be to perform this 
larger oversight role?
    Ms. Larence. The potential model of an interagency council 
seemed to us to make sense because there are so many equities 
involved in this process.
    Chairman Lieberman. Right.
    Ms. Larence. If I could just respond quickly, the Algorithm 
Working Group is a good example. It is going to be up to the 
agencies to voluntarily implement whatever algorithm is 
developed from that group, so there is really no one saying, 
are we going to be implementing this consistently or making 
sure that this happens.
    So a lot of the decisions are made through consensus, 
working groups, or voluntary measures, and we are just 
wondering if that is the most effective way to manage this 
process.
    Chairman Lieberman. Yes, OK.
    Commissioner Boyle, let me go to a different part of this, 
which is what you do to make sure that the nominating 
agencies--that is, agencies that suggest you put somebody on 
the terrorism list--are following the same criteria.
    Mr. Boyle. Again, as we noted earlier, Senator, the 
standard that is used is one of reasonable suspicion. In the 
first instance, that determination is made by the nominating 
agency itself.
    Second, all international terrorism nominations--and about 
98 to 99 percent of the database are persons who are associated 
with international terrorism.
    Chairman Lieberman. Right.
    Mr. Boyle. All of those nominations go to the National 
Counterterrorism Center where there is a second review or 
vetting of the underlying derogatory information to make sure 
it meets appropriate standards, and then it comes to us. So 
there are three phases at which the determination is made does 
this derogatory information meet a reasonable suspicion 
standard.
    Chairman Lieberman. Senator Levin is here, and I want to 
ask one more line of questions--I am glad to see him--and then 
I will yield to him. This, Commissioner Boyle, is on the 
question of what happens when there are hits found to the list. 
I believe I read and Ms. Larence said today that there were 
53,000. Is that the right number, Ms. Larence?
    Ms. Larence. Yes, sir.
    Chairman Lieberman. And I understand that GAO issued a 
restricted distribution version of its public report to us 
today which provides, I think, valuable statistics about watch 
list encounters and the results of those encounters. I know we 
cannot talk about those statistics in detail, but to the best 
of your ability, I wonder if you could talk a little bit about 
the categories of things that happen when somebody's name 
genuinely turns up on the list. I am leaving aside here--well, 
you might want to mention it--the false positives. What else 
happens?
    Mr. Boyle. When our call center receives a call from either 
a Customs and Border Protection agent or a municipal police 
officer who has encountered one of our watch-listed subjects, 
our call taker in the first instance, accessing all of the 
underlying information, verifies that this is or is not the 
watch-listed person.
    Chairman Lieberman. So let me interrupt you a second. When 
there is what I would call a hit, a match, in each case the 
person at the point of entry, they call that 24-hour, 7-day-a-
week service?
    Mr. Boyle. They should be calling. Now, we do have 
instances where we do not get calls, and we are working 
actively to try to prevent that. But, yes, if a police officer 
pulls somebody over or a CBP agent encounters someone at a 
border, they will get a screen that tells them to call the 
Terrorist Screening Center.
    They call the center. One of our analysts receives the 
call, accesses electronically all of the underlying 
information, and in the first instance tries to determine and 
does determine is the person who you are encountering the 
watch-listed person or is it someone who unfortunately shares a 
name.
    Chairman Lieberman. Right.
    Mr. Boyle. We can usually make that determination within 10 
minutes or less. If, in fact, the person who has been 
encountered is the watch-listed person, we then immediately 
notify the FBI's Terrorist Screening Operations Unit. The TSOU 
then notifies the case agent who is responsible for the case 
that has that particular person watch-listed so that there can 
be an appropriate operational response.
    The other things that happen are that the screen that the 
police officer in this example would receive tells the police 
officer, according to a category code, what action can be 
taken. Most often it is not to arrest because there has to be 
an active arrest warrant for that to happen, but most often it 
is simply to try to gather information. So that is the general 
procedure that happens.
    Just to link back momentarily to the Ziad Jarrah case, if, 
in fact, the person who has found his way into the United 
States and is encountered as a known or suspected terrorist is 
not the subject of an FBI investigation, then when we notify 
the Terrorist Screening Operations Unit, they will set a lead 
to the nearest FBI office, creating an investigation to follow 
up on that person to make sure that the FBI monitors what he is 
doing.
    Chairman Lieberman. That is really interesting because I 
would guess that most people would suspect that when you have 
found somebody who is a known or suspected terrorist, you would 
take them into custody, or the law enforcement person would 
take them into custody. But what you are saying is that there 
is really not a basis for that.
    Mr. Boyle. Only if there is an active arrest warrant or a 
detention order or if the person has done something else that 
would justify an arrest. But, no, the fact that the person is 
on the list does not in and of itself justify an arrest.
    Chairman Lieberman. But the Members of the Committee and 
the public I presume can have some confidence that having seen 
that person, that person is likely then to be followed if this 
is really a known or suspected terrorist.
    Mr. Boyle. It is a great opportunity for law enforcement to 
gather intelligence about that person because if the case agent 
is investigating that particular suspected terrorist and that 
person is stopped on the highway, we can get valuable 
information, such as: Where he is at that particular moment; 
who else is in the car with him; has he been found near a 
critical infrastructure or some other area that is particularly 
sensitive. It is a tremendous intelligence tool.
    Chairman Lieberman. Thanks. Very interesting. Very helpful.
    Senator Levin, welcome.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you. Thank you, Mr. Chairman, for 
holding this hearing. I will try to avoid questions if they 
have been asked before.
    The IG has found duplicate records in the Terrorist 
Screening Database which can slow down the screening process or 
even put a law enforcement officer at risk if the handling 
instructions are inconsistent. The IG's report says that TSC 
officials stated that they will review the TSDB on a weekly 
basis for duplicate records. Is that now going on?
    Mr. Boyle. Yes, sir, and I think it is important to 
identify that duplicate records in some instances are 
unavoidable because we have to maintain more than one record on 
a particular person because our downstream customers may want 
different fields of information. So while it appears to be 
duplicative because the name, date of birth, etc., is the same, 
we have to include some additional information.
    What is of real concern and what was importantly pointed 
out by the Office of Inspector General is when there are 
inconsistencies that might result in a different sort of 
category code. We are reviewing that to make sure that does not 
occur.
    Senator Levin. About how many inconsistencies have 
appeared? Is this a rare thing? Is this one out of a thousand?
    Mr. Boyle. I believe that the figure that was identified by 
the Office of Inspector General was 38 percent?
    Mr. Fine. I think that referred to problems with the 
quality assurance review. I think our report said that we saw 
approximately 2,000 in the first instance of duplicate records. 
I am not sure all of them had different handling instructions, 
but that was the concern that we had, duplicate records with 
significantly different handling instructions.
    Senator Levin. What percentage is that?
    Mr. Fine. If there are approximately 800,000 records, it is 
a very small percentage.
    Senator Levin. So it is less than a quarter?
    Mr. Fine. Less than 1 percent, yes.\1\
---------------------------------------------------------------------------
    \1\ A clarification of this response by Mr. Fine appears in the 
Appendix on page 279.
---------------------------------------------------------------------------
    Senator Levin. OK. The GAO report says that the Terrorist 
Screening Center is developing a process that would permit law 
enforcement and border control agencies to directly inquire of 
the database as opposed to contacting the TSC by telephone when 
there is a possible hit. What is the status of that process to 
allow direct access to the database?
    Mr. Boyle. Well, that is a remote query that we are in the 
process of putting in place. Right now the only availability of 
that is for certain FBI offices which we have made available so 
that agents at certain airports and other areas can access the 
database through a BlackBerry device.
    I should point out, though, Senator, that even once that 
remote query project is in practice, we will always want the 
encountering agent to call our center because it is our call 
takers, our analysts who have full electronic access to all of 
the underlying information on the watch list.
    Senator Levin. And it is not possible for someone in the 
field to have that direct access to all the underlying data?
    Mr. Boyle. No, because of classification issues.
    Senator Levin. All right. Now, the IG follow-up audit of 
the Screening Center found that there are two watch lists, not 
one. One is a Web-based system and the other is an older legacy 
version. They are supposed to be identical but they are not. 
The IG found that multiple watch list records were missing from 
one or the other database that was used by either visa, border, 
or law enforcement personnel. The Terrorist Screening Center 
has apparently told the IG that having two versions is 
necessary for technological reasons. That is troubling to me, 
but explain why you have to have two versions.
    Mr. Boyle. Well, we have had substantial discussions with 
our friends from the Office of Inspector General about that. At 
one point there were two separate systems. Right now we have 
what I would call two components of a single system. We have an 
ingest system through which we receive the nominations. We then 
have to take those nominations and export them or the export 
system to our downstream clients.
    The short answer to the question, sir, is that sometime 
during the first quarter of calendar year 2008, we expect to be 
able to retire that export system so that everything will be 
done through that first component, which will satisfy the IG's 
understandable concern.
    Second, with respect to the time between now and then, as a 
result of what the IG has identified, we now do a daily 
reconciliation of those two components so that at the end of 
each day, if they do not zero out, the very next day one of our 
analysts takes that report and his first priority, his first 
order of business is to ensure that those records are, in fact, 
properly reconciled.
    Senator Levin. And you have the funding to achieve that 
goal in 2008?
    Mr. Boyle. Yes, sir.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Levin. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Fine, the President has directed DHS to work with other 
agencies and departments to identify other appropriate 
screening opportunities, including the use of the watch list to 
screen applicants for private sector jobs when it is a job 
involving critical infrastructure.
    Now, some people who advocate this point out that if you 
are having an individual who is working in a chemical plant, 
for example, this kind of screening could be very helpful. 
Others, such as the Constitution Project,\1\ the think tank, 
have said that it is inappropriate to use watch lists for 
employment screening. And still other people have pointed out 
that a person who is turned down for a job who was mistakenly 
listed on a watch list would not be likely to conclude that was 
the reason, unlike a frequent traveler where it is pretty 
obvious that is what has occurred.
---------------------------------------------------------------------------
    \1\ The Constitution Project's report appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    Do you have any thoughts on this issue that you could share 
with us?
    Mr. Fine. I do think that it is an important issue to 
pursue, but it raises some significant concerns, particularly 
because of the factors that you just identified. It is not a 
minor inconvenience that you are going to be delayed at the 
airport a short period of time. When you are looking at it in 
the private sector, it can have very serious implications about 
not being able to get employment without having any reason or 
knowledge about why that is. It also gives us concerns because 
of the size of the watch list and the potential inaccuracies in 
the watch list about the impact of the mistakes on it.
    So while I am not opposed to pursuing this, I do think that 
these important safeguards need to be considered and discussed. 
One of the things that I do think needs to be discussed is not 
solely how people get onto the watch list--we have had a lot of 
discussion about this today, and it is an important subject--
but how people get off of the watch list, how people are 
removed. And the FBI has a process where if the case is closed, 
they are removed. I am not sure all the other entities have 
that same process or have that same standard, so I agree with 
the GAO that they need to look at that in terms of a high-level 
review and pursue these opportunities, but to ensure that there 
are safeguards in place.
    Senator Collins. I think that is a very difficult issue 
when you start extending the watch list to matters of 
employment. Clearly, we do not want terrorists to have the 
ability to work at a nuclear power plant or chemical facility 
or other critical infrastructure. But if you start having a 
system where the personnel director of a company has access to 
a watch list which may not be accurate and uses that to turn 
someone down for a job, I think it raises a host of new 
questions and we need to proceed with a lot of care in that 
area.
    Mr. Boyle, that raises an issue as well about how long it 
takes for an individual who is mistakenly included on a watch 
list to obtain redress. The IG has found that TSC on average 
takes about 67 days to close its review of an inquiry from an 
individual who believes he or she is mistakenly listed.
    Now, for a busy traveler, for a business traveler who is 
traveling every single week, several times a month, 2 months 
can involve a great deal of inconvenience if they have been 
incorrectly identified. Could you comment on what TSC is doing 
to try to expedite these reviews?
    Mr. Boyle. Yes. We are monitoring on a regular basis the 
average time that it takes us to resolve these matters. 
Sometimes because we must spend a fair amount of time dealing 
with the nominating agency to try to find out exactly what the 
information is that supports the nomination and that nominating 
agency's view of that person's watch list status, it can take a 
while, obviously particularly if we are dealing with someone 
who is overseas. But we are monitoring that. We are trying to 
reduce the time.
    I would also point out that, as the OIG report mentioned, 
although we would like to see the time that it takes reduced, 
the quality of the work that is being done by our redress unit 
is quite remarkable. And we certainly do not want to sacrifice 
the quality of what those folks are doing for the sake of 
expediency.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Commissioner Boyle, I know today the Committee did receive 
the Memorandum of Understanding with this new series of 
policies regarding redress. Is there anything more you would 
like to say about that. We appreciate the fact that it has come 
into effect. Parties to this are the various agencies involved 
in the various terrorism databases.
    Mr. Boyle. Yes, and thank you for the opportunity to 
address that, Mr. Chairman. This has been the result of a lot 
of hard work by a lot of folks over the past several months.
    We have had in place a process whereby our redress analysts 
in our redress unit work with the various agencies. The 
Memorandum of Understanding that is being released today 
commits each one of those agencies to identify a high-level 
official who will be responsible for ensuring that each of 
those agencies responds appropriately and quickly to any 
request for information relating to redress. So we believe that 
this will be a help in expediting the process and will continue 
to help us do so in a way that produces the appropriate result.
    Chairman Lieberman. Good. Secretary Rosenzweig, let me come 
back to the question and answer you had with Senator Collins 
about the Mexican national with tuberculosis who came back and 
forth across the borders undetected. I understood your example, 
and it was quite perplexing in its way. I want to mention two 
things to you to ask you to respond now or afterward.
    One, I have seen the name of the individual, and it is not 
a common Hispanic name.
    Two, my staff has continued to talk to the folks from 
Customs and Border Protection, and I do not know exactly what 
the individual did. I must say I do not have that, and I would 
like to; I think the Committee should understand that, the 
public should, from yourself or the Customs and Border 
Protection people. But I gather from the CBP people, or my 
staff does, that this was not a switch of names, that the 
person did something else.
    Mr. Rosenzweig. Thank you for the opportunity. Let me be 
clear. My hypothetical----
    Chairman Lieberman. That was a hypothetical.
    Mr. Rosenzweig [continuing]. Was about me, and it shows the 
difficulty when we do not know what the mistake is. In the 
Hispanic culture, it is very common for transposition.
    Chairman Lieberman. Right.
    Mr. Rosenzweig. It is very common for a transposition of 
birth dates because of the European style of 12/9 becoming 9/
12.
    We got a lookout, and the very first information lacked the 
first name and had the wrong birth date. We try within that all 
the other possible permutations that we can think of, given our 
knowledge--I mean, we are not, despite the fact that some 
people might think so, routinized robots who do not actually 
try and approach these things with creativity. We tried 
reversing the names. We tried reversing the birth dates. We did 
indeed get a corrected birth date. But we do not know if that 
is a correct corrected birth date. The first one having been 
wrong, we do not know if the second--it is only when we 
actually find the person a month later that we know that it is 
actually a corrected birth date as opposed to another incorrect 
iteration.
    We run all of those possibilities. In none of them, as I 
understand it--and, granted, this is very fact intensive--did 
we have a match, principally because we lacked a first name 
that was at all accurate.
    Chairman Lieberman. So you ran those at the time the person 
came through or afterward to see how the person got through?
    Mr. Rosenzweig. No. We are looking for him in our records. 
This person is identified to us as a frequent border crosser. 
If that is accurate, we should have a record of this person 
having crossed the border, not only the 20 times between the 
date and afterwards, but also the 50 times that he did before 
we ever got a report from the Mexican health authorities, 
which, of course, I cannot do anything until I get a notice.
    When we throw all of these iterations of possibilities at 
the data set and say, do you have any Hahns, do you have any 
Rosenzweigs, do you have any 10/31/59s or 10/8/59s or 8/10/59s, 
we do not get a match that matches these descriptions.
    Chairman Lieberman. OK. So that was just an example, and 
you are not sure whether he switched his name or not, the two 
names?
    Mr. Rosenzweig. We have no information about what the 
source of the incomplete--I think the fair way to say this is 
incomplete information that we got.
    Chairman Lieberman. So at that point, you have somebody 
that Mexico has told you is coming back and forth with a real 
contagious health problem, and you are trying to find him but 
you cannot. I mean, that is basically----
    Mr. Rosenzweig. That is it. And, perhaps I will just 
disagree with you slightly in characterization, but of the 
three names that we had, two of them to our eyes looked 
reasonably common, particularly the first name we got and one 
of the two latter names. Whether they are as common as 
Rodriguez, that is a value judgment that I----
    Chairman Lieberman. Right.
    Mr. Rosenzweig. But my Rodriguez example was intended to 
demonstrate that the only way I can guarantee finding one is to 
take all three names and all the possible dates of birth and 
run them all separately. And that just creates lots and lots of 
false positives.
    If we have the accurate information with the name-matching 
algorithm, we can find a person, but even there we are also 
hobbled by misspellings. One of these names is indeed a complex 
name, so we can try variants on that spelling. But we do not 
know what the error is in the information we have until roughly 
40 days later when we finally get the match and say, ``Ah, of 
course. If only we had known.''
    Senator Collins. Mr. Chairman.
    Chairman Lieberman. Senator Collins.
    Senator Collins. Could I just follow up on your point?
    Chairman Lieberman. Sure.
    Senator Collins. Because my information is a bit different. 
First of all, the agency knew that this individual was crossing 
at the El Paso, Texas, border crossing, so it is not as if we 
have a huge number of border crossings where this individual is 
coming through. Surely, that should have helped narrow the 
search.
    Second, the fact is, as I understand it from Customs and 
Border Protection, the individual was able to cross 21 times 
after the agency had the correct hyphenated last name, and I 
agree with the Chairman that this is not like Joe Smith. This 
last name is a hyphenated, not common last name. And you had 
the correct date of birth. When you know where the individual 
is going to be crossing, what his last name is, and his correct 
date of birth, the fact that the first name is missing seems to 
me not a sufficient explanation for why there was not a match. 
You had the middle name, the hyphenated last name, and the 
correct date of birth, and you know where he is coming from. 
You know at which border crossing to be on the alert.
    So I think this does not fit your example at all. Your 
example is a compelling one of what can happen, but it does not 
fit the facts of this case as they have been presented to me.
    Mr. Rosenzweig. Again, with respect, Senator, I think we 
are looking at it backwards. We now know that El Paso is the 
place that he most frequently crossed. In fact, my information 
is that all of his crossings were not at El Paso but at other 
ports of entry as well. So, unless we know in advance that is 
the only place, we are obliged to look everywhere.
    I would also say that El Paso is one of the three busiest 
crossing points in the United States on a daily basis. There 
are thousands and thousands of people.
    It is the case that with the information we had, had we 
restricted ourselves to that, we could have picked out all the 
people with those names crossing across the border. But not 
knowing who he is and without the first name, that would have 
included everybody who has either of those two hyphens, because 
you and I now know that is the correct answer, that his name is 
Rosenzweig-Hahn--and, again, I will not use his personal name. 
But, with respect, it is a bit of back-seat driving. I cannot 
know that until I find him. So I have to look at all the 
Rosenzweigs and all the Hahns in order to be able to be sure 
that I am getting the right answer.
    We try and heighten our scrutiny of those people, but that 
is a larger number of people than you might suspect.
    Senator Collins. He was not using an alias. That was the 
first report that we got from the Department--that was the 
reason. That turned out not to be the case.
    I am really concerned about this. This person was 
potentially very dangerous from a public health perspective, 
but what if this had been a terrorist? If a terrorist about 
whom we have an accurate last name and an accurate middle name 
and an accurate date of birth could cross 21 times, when you 
know it is likely where the individual is going to be crossing, 
that is of huge concern to me. And I say that with all due 
respect to the good job that is being done on this watch list. 
We have come a long ways. But if, in fact, with that kind of 
information a person can cross into our country, that really 
concerns me.
    Mr. Rosenzweig. Well, I do not mean to suggest that it does 
not concern us as well, and certainly with this event we are 
going to go back and review our procedures on watch list name 
matching to ensure that we are doing the best that we can. But 
I do have to say that given the volume of people that we have 
crossing the land border and not knowing ex ante whether or not 
we actually have the accurate names--because we have already 
determined, at least to some degree, that there is something 
missing because it is not coming up on our system fully. We 
have to always characterize and balance the risk/benefit of who 
we are targeting for secondary screening in the devotion of 
resources.
    I have to also say--and I think that this is predictive but 
accurate--that if the case were somebody who was a terrorist or 
on the terrorist watch list, which, of course, this person is 
not because it is a public health risk, we would probably apply 
a different risk calculus, especially if it were an active 
investigation of somebody we thought were coming immediately to 
do harm to the United States. We would stop all the Rosenzweigs 
and all the Hahns no matter what, and that would just be too 
bad and a difficult time for the mistakenly stopped ones who 
would be cleared after secondary. But we have to dial up and 
dial down the degree of closeness of screening and match that 
we seek, and at busy ports on the land side, we are disabled by 
the volume and by the need to process people in 10 seconds, at 
least as we currently stand, from doing much better.
    I should add, by the way, that we have modernization money 
in our budget, too, $100 million. The screens my guys use are 
25 years old for these things, so that is part of the answer, 
better software and things like that.
    Chairman Lieberman. OK. You understand our concern.
    Mr. Rosenzweig. Absolutely.
    Chairman Lieberman. And we are going to stay on this. As 
one of you said earlier, a terrorism watch list which is based 
on names obviously has limitations. One of them is if somebody 
uses an alias that they have not used before. Right, 
Commissioner? Then we are not going to catch him.
    Mr. Boyle. Yes, sir, unless we have some reason to link 
that alias with that person.
    Chairman Lieberman. To that person. Am I correct in my 
recollection, surprisingly, that all or most of the September 
11, 2001, terrorists actually used their own names?
    Mr. Boyle. For the most part, that is correct.
    Chairman Lieberman. That is what I thought, which was 
amazing. Now, of course, what is perplexing, to put it mildly, 
about this case of the Mexican national with tuberculosis is 
that we, our government, had his name from the Mexican health 
authorities, and we were still, for the reasons you said, not 
able to stop him. I suppose hindsight is always clearer, but I 
was interested in what you said, that obviously if we knew this 
person was a terrorist, even if we had the confusion, in your 
case we would have stopped everybody with those two names. It 
is an interesting value judgment when you have somebody with 
tuberculosis which could cause a real health problem here. I am 
sure people would have complained, but, again, what I am about 
to say I say with hindsight, I wish you had stopped everybody 
with his two names if that is what was necessary to stop him 
from coming in. It would have bothered a lot of people, a lot 
of false positives, but I think overall public interest would 
have been better served.
    Mr. Rosenzweig. If I may, sir, and this is a complete throw 
the ball to somebody else. But in making those kinds of 
determinations, we rely obviously very strongly on Health and 
Human Services and the Centers for Disease Control to tell us 
what they assess is the risk and how much or how little we need 
to dial up or dial down the matching process. And I am told 
that we actually had this discussion with HHS, and they made a 
judgment that they did not want to press for better 
identification information because that has systematic effects 
about discouraging people from seeking treatment. That is 
completely outside of my lane, and it certainly is something 
you should be interested in following up on. But we take the 
medical judgments as given to us by our partners. We do not do 
doctors.
    Chairman Lieberman. OK. So, I ask you to keep us posted on 
your continuing review of this because we are not satisfied yet 
because we do not want this to happen again, and we know that 
the GAO report mentions other cases in which people on a watch 
list earlier this year--or was it last spring--got by and got 
into the country. And it also reminds us that to the extent 
that we move to tamper-proof IDs for people to come into the 
country who are able to make that easily entered into an 
electronic system and that we move to biometrics to the extent 
that we have biometrics on people, that is obviously at a 
higher level of certainty.
    But I want to come back to the beginning because I think 
the important thing is that the Terrorist Screening Center and 
the accumulation of lists and the process you have has raised 
our guard much higher than it was before and on September 11, 
2001. For that we thank you. And I guess the other part of this 
clearly is that there is more to do. We have a big country, and 
a lot of people coming in and out of it every day, astounding 
numbers, really--legally I am talking about, not even 
illegally--and how we do our best using modern technology to 
filter out those who either are dangerous to us in terms of 
terrorism or health is critically important. So I thank you.
    Senator Collins, do you want to add anything?
    Senator Collins. No, thank you.
    Chairman Lieberman. Thanks very much for what you have been 
doing. The hearing record will be open for 15 days for Members 
to submit additional questions to you and for you to answer 
some of the questions. Senator Warner, I know, would 
particularly like an answer to his question for the record.
    I thank you very much. The hearing is adjourned.
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8989.001

[GRAPHIC] [TIFF OMITTED] T8989.002

[GRAPHIC] [TIFF OMITTED] T8989.003

[GRAPHIC] [TIFF OMITTED] T8989.004

[GRAPHIC] [TIFF OMITTED] T8989.005

[GRAPHIC] [TIFF OMITTED] T8989.006

[GRAPHIC] [TIFF OMITTED] T8989.007

[GRAPHIC] [TIFF OMITTED] T8989.008

[GRAPHIC] [TIFF OMITTED] T8989.009

[GRAPHIC] [TIFF OMITTED] T8989.010

[GRAPHIC] [TIFF OMITTED] T8989.011

[GRAPHIC] [TIFF OMITTED] T8989.012

[GRAPHIC] [TIFF OMITTED] T8989.013

[GRAPHIC] [TIFF OMITTED] T8989.014

[GRAPHIC] [TIFF OMITTED] T8989.015

[GRAPHIC] [TIFF OMITTED] T8989.016

[GRAPHIC] [TIFF OMITTED] T8989.017

[GRAPHIC] [TIFF OMITTED] T8989.018

[GRAPHIC] [TIFF OMITTED] T8989.019

[GRAPHIC] [TIFF OMITTED] T8989.020

[GRAPHIC] [TIFF OMITTED] T8989.021

[GRAPHIC] [TIFF OMITTED] T8989.022

[GRAPHIC] [TIFF OMITTED] T8989.023

[GRAPHIC] [TIFF OMITTED] T8989.024

[GRAPHIC] [TIFF OMITTED] T8989.025

[GRAPHIC] [TIFF OMITTED] T8989.026

[GRAPHIC] [TIFF OMITTED] T8989.027

[GRAPHIC] [TIFF OMITTED] T8989.028

[GRAPHIC] [TIFF OMITTED] T8989.029

[GRAPHIC] [TIFF OMITTED] T8989.030

[GRAPHIC] [TIFF OMITTED] T8989.031

[GRAPHIC] [TIFF OMITTED] T8989.032

[GRAPHIC] [TIFF OMITTED] T8989.033

[GRAPHIC] [TIFF OMITTED] T8989.034

[GRAPHIC] [TIFF OMITTED] T8989.035

[GRAPHIC] [TIFF OMITTED] T8989.036

[GRAPHIC] [TIFF OMITTED] T8989.037

[GRAPHIC] [TIFF OMITTED] T8989.038

[GRAPHIC] [TIFF OMITTED] T8989.039

[GRAPHIC] [TIFF OMITTED] T8989.040

[GRAPHIC] [TIFF OMITTED] T8989.041

[GRAPHIC] [TIFF OMITTED] T8989.042

[GRAPHIC] [TIFF OMITTED] T8989.043

[GRAPHIC] [TIFF OMITTED] T8989.044

[GRAPHIC] [TIFF OMITTED] T8989.045

[GRAPHIC] [TIFF OMITTED] T8989.046

[GRAPHIC] [TIFF OMITTED] T8989.047

[GRAPHIC] [TIFF OMITTED] T8989.048

[GRAPHIC] [TIFF OMITTED] T8989.049

[GRAPHIC] [TIFF OMITTED] T8989.050

[GRAPHIC] [TIFF OMITTED] T8989.085

[GRAPHIC] [TIFF OMITTED] T8989.086

[GRAPHIC] [TIFF OMITTED] T8989.087

[GRAPHIC] [TIFF OMITTED] T8989.088

[GRAPHIC] [TIFF OMITTED] T8989.089

[GRAPHIC] [TIFF OMITTED] T8989.090

[GRAPHIC] [TIFF OMITTED] T8989.091

[GRAPHIC] [TIFF OMITTED] T8989.092

[GRAPHIC] [TIFF OMITTED] T8989.093

[GRAPHIC] [TIFF OMITTED] T8989.094

[GRAPHIC] [TIFF OMITTED] T8989.095

[GRAPHIC] [TIFF OMITTED] T8989.096

[GRAPHIC] [TIFF OMITTED] T8989.097

[GRAPHIC] [TIFF OMITTED] T8989.098

[GRAPHIC] [TIFF OMITTED] T8989.099

[GRAPHIC] [TIFF OMITTED] T8989.100

[GRAPHIC] [TIFF OMITTED] T8989.101

[GRAPHIC] [TIFF OMITTED] T8989.102

[GRAPHIC] [TIFF OMITTED] T8989.103

[GRAPHIC] [TIFF OMITTED] T8989.104

[GRAPHIC] [TIFF OMITTED] T8989.105

[GRAPHIC] [TIFF OMITTED] T8989.106

[GRAPHIC] [TIFF OMITTED] T8989.107

[GRAPHIC] [TIFF OMITTED] T8989.108

[GRAPHIC] [TIFF OMITTED] T8989.109

[GRAPHIC] [TIFF OMITTED] T8989.110

[GRAPHIC] [TIFF OMITTED] T8989.111

[GRAPHIC] [TIFF OMITTED] T8989.112

[GRAPHIC] [TIFF OMITTED] T8989.113

[GRAPHIC] [TIFF OMITTED] T8989.114

[GRAPHIC] [TIFF OMITTED] T8989.115

[GRAPHIC] [TIFF OMITTED] T8989.116

[GRAPHIC] [TIFF OMITTED] T8989.117

[GRAPHIC] [TIFF OMITTED] T8989.118

[GRAPHIC] [TIFF OMITTED] T8989.119

[GRAPHIC] [TIFF OMITTED] T8989.120

[GRAPHIC] [TIFF OMITTED] T8989.121

[GRAPHIC] [TIFF OMITTED] T8989.122

[GRAPHIC] [TIFF OMITTED] T8989.123

[GRAPHIC] [TIFF OMITTED] T8989.124

[GRAPHIC] [TIFF OMITTED] T8989.125

[GRAPHIC] [TIFF OMITTED] T8989.126

[GRAPHIC] [TIFF OMITTED] T8989.127

[GRAPHIC] [TIFF OMITTED] T8989.128

[GRAPHIC] [TIFF OMITTED] T8989.129

[GRAPHIC] [TIFF OMITTED] T8989.130

[GRAPHIC] [TIFF OMITTED] T8989.131

[GRAPHIC] [TIFF OMITTED] T8989.132

[GRAPHIC] [TIFF OMITTED] T8989.133

[GRAPHIC] [TIFF OMITTED] T8989.134

[GRAPHIC] [TIFF OMITTED] T8989.135

[GRAPHIC] [TIFF OMITTED] T8989.136

[GRAPHIC] [TIFF OMITTED] T8989.137

[GRAPHIC] [TIFF OMITTED] T8989.138

[GRAPHIC] [TIFF OMITTED] T8989.139

[GRAPHIC] [TIFF OMITTED] T8989.140

[GRAPHIC] [TIFF OMITTED] T8989.141

[GRAPHIC] [TIFF OMITTED] T8989.142

[GRAPHIC] [TIFF OMITTED] T8989.143

[GRAPHIC] [TIFF OMITTED] T8989.144

[GRAPHIC] [TIFF OMITTED] T8989.145

[GRAPHIC] [TIFF OMITTED] T8989.146

[GRAPHIC] [TIFF OMITTED] T8989.147

[GRAPHIC] [TIFF OMITTED] T8989.148

[GRAPHIC] [TIFF OMITTED] T8989.149

[GRAPHIC] [TIFF OMITTED] T8989.150

[GRAPHIC] [TIFF OMITTED] T8989.151

[GRAPHIC] [TIFF OMITTED] T8989.152

[GRAPHIC] [TIFF OMITTED] T8989.153

[GRAPHIC] [TIFF OMITTED] T8989.154

[GRAPHIC] [TIFF OMITTED] T8989.155

[GRAPHIC] [TIFF OMITTED] T8989.156

[GRAPHIC] [TIFF OMITTED] T8989.157

[GRAPHIC] [TIFF OMITTED] T8989.158

[GRAPHIC] [TIFF OMITTED] T8989.159

[GRAPHIC] [TIFF OMITTED] T8989.160

[GRAPHIC] [TIFF OMITTED] T8989.161

[GRAPHIC] [TIFF OMITTED] T8989.162

[GRAPHIC] [TIFF OMITTED] T8989.163

[GRAPHIC] [TIFF OMITTED] T8989.164

[GRAPHIC] [TIFF OMITTED] T8989.165

[GRAPHIC] [TIFF OMITTED] T8989.166

[GRAPHIC] [TIFF OMITTED] T8989.167

[GRAPHIC] [TIFF OMITTED] T8989.168

[GRAPHIC] [TIFF OMITTED] T8989.169

[GRAPHIC] [TIFF OMITTED] T8989.170

[GRAPHIC] [TIFF OMITTED] T8989.171

[GRAPHIC] [TIFF OMITTED] T8989.172

[GRAPHIC] [TIFF OMITTED] T8989.173

[GRAPHIC] [TIFF OMITTED] T8989.174

[GRAPHIC] [TIFF OMITTED] T8989.175

[GRAPHIC] [TIFF OMITTED] T8989.176

[GRAPHIC] [TIFF OMITTED] T8989.177

[GRAPHIC] [TIFF OMITTED] T8989.178

[GRAPHIC] [TIFF OMITTED] T8989.179

[GRAPHIC] [TIFF OMITTED] T8989.180

[GRAPHIC] [TIFF OMITTED] T8989.181

[GRAPHIC] [TIFF OMITTED] T8989.182

[GRAPHIC] [TIFF OMITTED] T8989.183

[GRAPHIC] [TIFF OMITTED] T8989.184

[GRAPHIC] [TIFF OMITTED] T8989.185

[GRAPHIC] [TIFF OMITTED] T8989.186

[GRAPHIC] [TIFF OMITTED] T8989.187

[GRAPHIC] [TIFF OMITTED] T8989.188

[GRAPHIC] [TIFF OMITTED] T8989.189

[GRAPHIC] [TIFF OMITTED] T8989.190

[GRAPHIC] [TIFF OMITTED] T8989.191

[GRAPHIC] [TIFF OMITTED] T8989.192

[GRAPHIC] [TIFF OMITTED] T8989.193

[GRAPHIC] [TIFF OMITTED] T8989.194

[GRAPHIC] [TIFF OMITTED] T8989.195

[GRAPHIC] [TIFF OMITTED] T8989.196

[GRAPHIC] [TIFF OMITTED] T8989.197

[GRAPHIC] [TIFF OMITTED] T8989.198

[GRAPHIC] [TIFF OMITTED] T8989.199

[GRAPHIC] [TIFF OMITTED] T8989.200

[GRAPHIC] [TIFF OMITTED] T8989.201

[GRAPHIC] [TIFF OMITTED] T8989.202

[GRAPHIC] [TIFF OMITTED] T8989.203

[GRAPHIC] [TIFF OMITTED] T8989.204

[GRAPHIC] [TIFF OMITTED] T8989.205

[GRAPHIC] [TIFF OMITTED] T8989.206

[GRAPHIC] [TIFF OMITTED] T8989.207

[GRAPHIC] [TIFF OMITTED] T8989.208

[GRAPHIC] [TIFF OMITTED] T8989.209

[GRAPHIC] [TIFF OMITTED] T8989.210

[GRAPHIC] [TIFF OMITTED] T8989.211

[GRAPHIC] [TIFF OMITTED] T8989.212

[GRAPHIC] [TIFF OMITTED] T8989.213

[GRAPHIC] [TIFF OMITTED] T8989.214

[GRAPHIC] [TIFF OMITTED] T8989.215

[GRAPHIC] [TIFF OMITTED] T8989.216

[GRAPHIC] [TIFF OMITTED] T8989.217

[GRAPHIC] [TIFF OMITTED] T8989.218

[GRAPHIC] [TIFF OMITTED] T8989.219

[GRAPHIC] [TIFF OMITTED] T8989.220

[GRAPHIC] [TIFF OMITTED] T8989.221

[GRAPHIC] [TIFF OMITTED] T8989.222

[GRAPHIC] [TIFF OMITTED] T8989.223

[GRAPHIC] [TIFF OMITTED] T8989.224

[GRAPHIC] [TIFF OMITTED] T8989.225

[GRAPHIC] [TIFF OMITTED] T8989.226

[GRAPHIC] [TIFF OMITTED] T8989.227

[GRAPHIC] [TIFF OMITTED] T8989.228

[GRAPHIC] [TIFF OMITTED] T8989.229

[GRAPHIC] [TIFF OMITTED] T8989.230

[GRAPHIC] [TIFF OMITTED] T8989.231

[GRAPHIC] [TIFF OMITTED] T8989.232

[GRAPHIC] [TIFF OMITTED] T8989.233

[GRAPHIC] [TIFF OMITTED] T8989.234

[GRAPHIC] [TIFF OMITTED] T8989.235

[GRAPHIC] [TIFF OMITTED] T8989.236

[GRAPHIC] [TIFF OMITTED] T8989.237

[GRAPHIC] [TIFF OMITTED] T8989.238

[GRAPHIC] [TIFF OMITTED] T8989.239

[GRAPHIC] [TIFF OMITTED] T8989.240

[GRAPHIC] [TIFF OMITTED] T8989.241

[GRAPHIC] [TIFF OMITTED] T8989.242

[GRAPHIC] [TIFF OMITTED] T8989.243

[GRAPHIC] [TIFF OMITTED] T8989.244

[GRAPHIC] [TIFF OMITTED] T8989.245

[GRAPHIC] [TIFF OMITTED] T8989.246

[GRAPHIC] [TIFF OMITTED] T8989.247

[GRAPHIC] [TIFF OMITTED] T8989.248

[GRAPHIC] [TIFF OMITTED] T8989.249

[GRAPHIC] [TIFF OMITTED] T8989.250

[GRAPHIC] [TIFF OMITTED] T8989.251

[GRAPHIC] [TIFF OMITTED] T8989.252

[GRAPHIC] [TIFF OMITTED] T8989.253

[GRAPHIC] [TIFF OMITTED] T8989.254

[GRAPHIC] [TIFF OMITTED] T8989.255

[GRAPHIC] [TIFF OMITTED] T8989.256

[GRAPHIC] [TIFF OMITTED] T8989.257

[GRAPHIC] [TIFF OMITTED] T8989.258

[GRAPHIC] [TIFF OMITTED] T8989.259

[GRAPHIC] [TIFF OMITTED] T8989.260

[GRAPHIC] [TIFF OMITTED] T8989.261

[GRAPHIC] [TIFF OMITTED] T8989.262

[GRAPHIC] [TIFF OMITTED] T8989.263

[GRAPHIC] [TIFF OMITTED] T8989.264

[GRAPHIC] [TIFF OMITTED] T8989.265

[GRAPHIC] [TIFF OMITTED] T8989.266

[GRAPHIC] [TIFF OMITTED] T8989.267

[GRAPHIC] [TIFF OMITTED] T8989.268

[GRAPHIC] [TIFF OMITTED] T8989.269

[GRAPHIC] [TIFF OMITTED] T8989.270

[GRAPHIC] [TIFF OMITTED] T8989.271

[GRAPHIC] [TIFF OMITTED] T8989.272

[GRAPHIC] [TIFF OMITTED] T8989.051

[GRAPHIC] [TIFF OMITTED] T8989.052

[GRAPHIC] [TIFF OMITTED] T8989.053

[GRAPHIC] [TIFF OMITTED] T8989.273

[GRAPHIC] [TIFF OMITTED] T8989.274

[GRAPHIC] [TIFF OMITTED] T8989.275

[GRAPHIC] [TIFF OMITTED] T8989.276

[GRAPHIC] [TIFF OMITTED] T8989.054

[GRAPHIC] [TIFF OMITTED] T8989.055

[GRAPHIC] [TIFF OMITTED] T8989.056

[GRAPHIC] [TIFF OMITTED] T8989.057

[GRAPHIC] [TIFF OMITTED] T8989.058

[GRAPHIC] [TIFF OMITTED] T8989.059

[GRAPHIC] [TIFF OMITTED] T8989.060

[GRAPHIC] [TIFF OMITTED] T8989.061

[GRAPHIC] [TIFF OMITTED] T8989.062

[GRAPHIC] [TIFF OMITTED] T8989.063

[GRAPHIC] [TIFF OMITTED] T8989.064

[GRAPHIC] [TIFF OMITTED] T8989.065

[GRAPHIC] [TIFF OMITTED] T8989.066

[GRAPHIC] [TIFF OMITTED] T8989.067

[GRAPHIC] [TIFF OMITTED] T8989.068

[GRAPHIC] [TIFF OMITTED] T8989.069

[GRAPHIC] [TIFF OMITTED] T8989.070

[GRAPHIC] [TIFF OMITTED] T8989.071

[GRAPHIC] [TIFF OMITTED] T8989.072

[GRAPHIC] [TIFF OMITTED] T8989.073

[GRAPHIC] [TIFF OMITTED] T8989.074

[GRAPHIC] [TIFF OMITTED] T8989.075

[GRAPHIC] [TIFF OMITTED] T8989.076

[GRAPHIC] [TIFF OMITTED] T8989.077

[GRAPHIC] [TIFF OMITTED] T8989.078

[GRAPHIC] [TIFF OMITTED] T8989.079

[GRAPHIC] [TIFF OMITTED] T8989.080

[GRAPHIC] [TIFF OMITTED] T8989.081

[GRAPHIC] [TIFF OMITTED] T8989.082

[GRAPHIC] [TIFF OMITTED] T8989.083

[GRAPHIC] [TIFF OMITTED] T8989.084

                                 <all>

</pre></body></html>
